<html>
<title> - ASSESSING THE STATE OF FEDERAL CYBERSECURITY RISK DETERMINATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    ASSESSING THE STATE OF FEDERAL CYBERSECURITY RISK DETERMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           CYBERSECURITY AND
                       INFRASTRUCTURE PROTECTION

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2018

                               __________

                           Serial No. 115-73

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-445 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b0c1b042b081e181f030e071b4508040645">[email&#160;protected]</a>

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 
                                 
                                 ------                                

      SUBCOMMITTEE ON CYBERSECURITY AND INFRASTRUCTURE PROTECTION

                    John Ratcliffe, Texas, Chairman
John Katko, New York                 Cedric L. Richmond, Louisiana
Daniel M. Donovan, Jr., New York     Sheila Jackson Lee, Texas
Mike Gallagher, Wisconsin            James R. Langevin, Rhode Island
Brian K. Fitzpatrick, Pennsylvania   Val Butler Demings, Florida
Don Bacon, Nebraska                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kristen M. Duncan, Subcommittee Staff Director
           Moira Bergin, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Cybersecurity 
  and Infrastructure Protection:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity and Infrastructure Protection:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Ken Durbin, Senior Strategist, Global Government Affairs, 
  Symantec:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Ms. Summer Fowler, Technical Director, Cybersecurity Risk and 
  Resilience, Software Engineering Institute, CERT, Carnegie 
  Mellon University:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Ari Schwartz, Managing Director of Cybersecurity Services, 
  Cybersecurity Risk Management Group, Venable LLP, Testifying on 
  Behalf of the Cybersecurity Coalition and Center for 
  Cybersecurity Policy and Law:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19

                                Appendix

Questions From Honorable James R. Langevin for Summer Fowler.....    33
Questions From Honorable James R. Langevin for Ari Schwartz......    34

 
    ASSESSING THE STATE OF FEDERAL CYBERSECURITY RISK DETERMINATION

                              ----------                              


                        Wednesday, July 25, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Cybersecurity and 
                                 Infrastructure Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:38 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Ratcliffe 
(Chairman of the subcommittee) presiding.
    Present: Representatives Ratcliffe, Bacon, Donovan, Katko, 
Richmond, and Langevin.
    Mr. Ratcliffe. Good morning. The Committee on Homeland 
Security, Subcommittee on Cybersecurity and Infrastructure 
Protection will come to order.
    The subcommittee is meeting this morning to receive 
testimony regarding how the Federal Government understands and 
manages enterprise-wide cybersecurity risks. I now recognize 
myself for an opening statement.
    As we convene today, this subcommittee is concerned that 
the Federal Government is not yet equipped to determine how 
threat actors seek to gain access to our private information. 
This challenge is one of the reasons I introduced, and 
yesterday the full committee passed, the Advancing 
Cybersecurity Diagnostics and Mitigation Act. H.R. 6443 will 
codify and provide direction to DHS regarding the CDM program. 
This was a bipartisan effort and I thank the Ranking Member, 
Mr. Richmond, as well as Mr. Katko, Mr. Donovan, Mr. 
Fitzpatrick, and Mr. Langevin, for working with me on this 
important issue because there is an evident lack of strategy in 
mitigating risk across our Federal agencies.
    Cyber work force gaps and legacy IT systems are 
vulnerabilities in the Federal Government's cybersecurity 
posture but the efficacy of our basic cybersecurity practices 
remain common liabilities. To this end the Office of Management 
and Budget and Department of Homeland Security released a 
report earlier this year entitled Federal Cybersecurity Risk 
Determination Report Action Plan. This report spoke to many of 
the challenges faced in securing enterprise-wide Federal 
Government IT systems.
    Perhaps not surprisingly OMB and DHS determined that 74 
percent of Government agencies have cybersecurity programs that 
are either at risk or at high risk. The risk assessments 
performed by these agencies showed that a lack of threat 
information results in ineffective allocations of limited cyber 
resources. This overall situation creates enterprise-wide gaps 
in our network visibility, IT tool, and capability 
standardization, and common operating procedures, all of which 
negatively impact Federal cybersecurity.
    Given the significant and ever-increasing danger of threats 
and the absence of good data inventory, risk management must be 
fully integrated into every aspect of an organization. Leaders 
of Federal agencies at all organizational levels must 
understand the responsibilities and they must be accountable 
for protecting organizational assets and managing security and 
privacy risks.
    The OMB and DHS report identified four main actions that 
are necessary to address cybersecurity risks across the Federal 
enterprise. First, Federal agencies must increase their 
cybersecurity threat awareness. This seems like a too obvious 
of a recommendation but often those charged with defending 
agency networks lack timely information regarding the tactics, 
techniques, and procedures that our adversaries are using to 
exploit Government information systems.
    Second, OMB urged agencies to standardize IT and 
cybersecurity capabilities to control costs and to improve 
asset management. Generally speaking agencies do not have 
standardized cybersecurity processes, which ultimately impacts 
their ability to efficiently and effectively combat cyber 
threats.
    The Continuous Diagnostics and Mitigation program or CDM 
will accelerate both IT management efforts and cybersecurity 
improvements across the Federal Government. In fact, my bill, 
the Advancing Cybersecurity Diagnostics and Mitigation Act will 
require the program to evolve thereby ensuring that agency CIOs 
and DHS have the visibility necessary, not only to combat 
threats, but also to target modernization resources and efforts 
where they are most needed.
    The third recommended action is that agencies must 
consolidate their security operation centers to improve 
incident detection and response capabilities. OMB found that 
only 27 percent of agencies can detect and investigate attempts 
to access large volumes of data. This troubling statistic 
should cause us all to pause.
    While the report identifies that Federal agencies currently 
lack network visibility, the DHS's CDM program can assist with 
this issue by providing insight into what is occurring on 
networks--after all, you cannot defend what you cannot see.
    Finally, OMB recommended that agencies increase 
accountability through improved governance processes, indeed 
both the Federal Information Security Management Act and 
President Trump's Executive Order on Strengthening the 
Cybersecurity and Federal Networks and Critical Infrastructure 
already identify the agency head as the official ultimately 
responsible for each agency's cybersecurity.
    Of course, agency heads often delegate cyber risk 
management responsibilities to the chief information officer 
and chief information security officer but agency leadership 
should increase its oversight of and its engagement in their 
agency's cybersecurity ecosystem.
    Ultimately a collaborative approach to mitigating cyber 
threats is meant to prioritize meeting the needs of DHS's 
partners and is consistent with the growing recognition among 
Government, academic, and corporate leaders, that cybersecurity 
is increasingly interdependent across sectors and must be a 
core aspect of risk management strategies.
    We are in an era that requires flexibility, resiliency, and 
discipline. I look forward to a candid conversation with our 
witnesses today about ensuring our Federal networks can embody 
these goals. Your thoughts and opinions are important as we 
oversee the state of Federal Government cybersecurity risks.
    [The statement of Chairman Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
                             July 25, 2018
    This subcommittee is concerned that the Federal Government is not 
equipped to determine how threat actors seek to gain access to private 
information. There is an evident lack of strategy in mitigating risk 
across Federal agencies. Cyber workforce gaps and legacy IT systems are 
vulnerabilities in the Federal Government's cybersecurity posture, but 
the efficacy of our basic cybersecurity practices are common 
liabilities.
    To this end, the Office of Management and Budget and Department of 
Homeland Security released a report earlier this year entitled 
``Federal Cybersecurity Risk Determination Report and Action Plan.'' 
This report spoke to many of the challenges faced in securing 
enterprise-wide Federal Government IT systems.
    Perhaps not surprisingly, OMB and DHS determined that 74 percent of 
Government agencies have cybersecurity programs that are either at-risk 
or high-risk. The risk assessments performed by these agencies showed 
that a lack of threat information results in ineffective allocations of 
limited cyber resources. This overall situation creates enterprise-wide 
gaps in network visibility, IT tool and capability standardization, and 
common operating procedures, all of which negatively impact Federal 
cybersecurity.
    Given the significant and ever-increasing danger of threats and the 
absence of good data inventory, risk management must be fully 
integrated into every aspect of an organization. Leaders of Federal 
agencies at all organizational levels must understand their 
responsibilities and must be accountable for protecting organizational 
assets and managing security and privacy risks.
    The OMB and DHS report identified four main actions that are 
necessary to address cybersecurity risks across the Federal enterprise. 
First, Federal agencies must increase their cybersecurity threat 
awareness. This seems like too obvious of a recommendation, but often, 
those charged with defending agency networks lack timely information 
regarding the tactics, techniques, and procedures that adversaries use 
to exploit Government information systems.
    Second, OMB urged agencies to standardize IT and cybersecurity 
capabilities to control costs and improve asset management. Generally 
speaking, agencies do not have standardized cybersecurity processes, 
which ultimately impacts their ability to efficiently and effectively 
combat threats. The Continuous Diagnostics and Mitigation program, or 
CDM, will accelerate both IT management efforts and cybersecurity 
issues across the Federal Government. In fact, a bill that I introduced 
last week H.R. 6443, the Advancing Cybersecurity Diagnostics and 
Mitigation Act, will require the program to evolve to ensure agency 
CIO's and DHS have the visibility necessary not only to combat threats, 
but also to target modernization resources and efforts where they are 
most needed.
    Third, agencies must consolidate their security operations centers 
to improve incident detection and response capabilities. OMB found that 
only 27 percent of agencies can detect and investigate attempts to 
access large volumes of data. This troubling statistic should cause all 
of us to pause. While the report identifies that Federal agencies 
currently network visibility, DHS's CDM program can assist with this 
issue by providing insights into what is occurring on networks. After 
all you can't defend what you can't see.
    And finally, OMB recommended that agencies increase accountability 
through improved governance processes. Indeed, both the Federal 
Information Security Management Act and President Trump's Executive 
Order on Strengthening the Cybersecurity of Federal Networks and 
Critical Infrastructure already identify the agency head as the 
official ultimately responsible for each agency's cybersecurity. Of 
course, agency heads often delegate cyber risk management 
responsibilities to the chief information officer and chief information 
security officer, but agency leadership should increase its oversight 
of, and engagement in, their agency's cybersecurity ecosystem.
    Ultimately, a collaborative approach to mitigating cyber threats is 
meant to prioritize meeting the needs of DHS partners, and is 
consistent with the growing recognition among Government, academic, and 
corporate leaders that cybersecurity is increasingly interdependent 
across sectors and must be a core aspect of risk management strategies.
    We are in an era that requires flexibility, resiliency, and 
discipline, I look forward to a candid conversation with our witnesses 
about ensuring Federal networks can embody these goals. I look forward 
to hearing from our witnesses. Your thoughts and opinions are important 
as we oversee the state of Federal Government cybersecurity risks.

    Mr. Ratcliffe. The Chair recognizes the Ranking Member of 
the subcommittee, the gentleman from Louisiana, Mr. Richmond, 
for his opening statement.
    Mr. Richmond. Good morning.
    I want to thank Chairman Ratcliffe for holding today's 
hearing on the Federal Cybersecurity Risk Determination Report 
and Action Plan.
    It is no secret that Federal networks are an attractive 
target to our adversaries and cyber criminals alike. Thales 
eSecurity 2018 Data Threat Report found Federal agencies 
experienced more data breaches than any other sector.
    State actors such as Russia, China, Iran, and North Korea 
have become more sophisticated, more emboldened and more brazen 
and the data stored on our networks about American citizens, 
our National security plans, and our economy, is important to 
them.
    We have authorized and funded programs to defend our 
Federal networks and this subcommittee has performed rigorous 
oversight over many of them, this Congress. I am familiar with 
the challenges related to implementation of the Department of 
Homeland Security's Continuous Diagnostics and Mitigation 
program, CDM, as well as cyber threat information sharing so I 
was not terribly surprised by some of the Federal cybersecurity 
risk determination reports general findings.
    But the devil is in the details. I could have told you for 
example that the collective ability of our Federal agencies to 
understand what is happening on their networks isn't what it 
should be but I did not realize that fewer than half of the 96 
agencies surveyed can detect encrypted ex-filtration of 
information at target levels or that only 27 percent can detect 
and investigate attempts to access large volumes of data.
    I knew that resource challenges have stunted the maturation 
of programs designed to protect Federal networks but I was 
troubled to learn that agencies are not equipped to make 
strategic investment decisions with money Congress provides.
    While I could have assumed that agencies could improve 
their Cyber Incident Response procedures or how cyber risks are 
communicated, I could not have predicted that just over half of 
the agencies surveyed had validated Cyber Incident Response 
roles in the past year and only 59 percent of agencies have a 
mechanism to issue enterprise-wide cyber threat alerts. We have 
to do better than this.
    The Federal Cybersecurity Risk Determination Report 
identified important actions the Federal Government should 
undertake to resolve existing capability gaps. Many of the 
proposed solutions leverage CDM tools, some of which have yet 
to be fully implemented or may not be deployed anytime soon.
    Yesterday, this committee approved legislation Chairman 
Ratcliffe introduced, and which I co-sponsored, to make the CDM 
program more robust, more accountable. I would be interested in 
hearing from our witnesses about how the Federal Government can 
optimize the potential of CDM and improve its implementation.
    Additionally, I would be interested to know if the 
witnesses disagree with any of the action items identified in 
the risk determination report or if they are critical or issues 
critical to risk management that the report failed to address.
    Finally, I will be interested in hearing the witnesses' 
thoughts about the importance of leadership from the White 
House when it comes to improving the cybersecurity of our 
Federal networks.
    Before I close I want to point out on a separate subject 
that we are heading into August recess without making any 
progress toward reauthorization of the Chemical Facility Anti-
Terrorism Standards, known as the CFATS program.
    Ranking Member Thompson and I have repeatedly asked the 
Majority to hold oversight hearings with the Department and 
begin work on negotiating and forming CFATS' reauthorization 
legislation. Neither has happened and I am concerned that we 
may not have enough legislative days left to get 
reauthorization past the finish line. I hope the majority will 
make CFATS a priority when we return from the August recess so 
we can avoid a temporary extension.
    With that I thank the witnesses for being here today. I 
look forward to their testimony.
    I yield back the balance of my time.
    [The prepared statement of Ranking Member Richmond 
follows:]
              Statement of Ranking Member Cedric Richmond
                             July 25, 2018
    Good morning. I would like to thank Chairman Ratcliffe for holding 
today's hearing on the Federal Cybersecurity Risk Determination Report 
and Action Plan.
    It is no secret that Federal networks are an attractive target to 
our adversaries and cyber criminals alike.
    Thales e-Security's 2018 Data Threat Report found Federal agencies 
experience more data breaches than any other sector.
    State actors--such as Russia, China, Iran, and North Korea--have 
become more sophisticated, more emboldened, and more brazen.
    And the data stored on our networks--about American citizens, our 
National security plans, and our economy--is important to them.
    We have authorized and funded programs to defend our Federal 
networks, and this subcommittee has performed rigorous oversight over 
many of them this Congress.
    I am familiar with the challenges related to implementation of the 
Department of Homeland Security's Continuous Diagnostic and Mitigation 
Program (CDM) as well as cyber threat information sharing.
    So I wasn't terribly surprised by some of the Federal Cybersecurity 
Risk Determination Report's general findings.
    But the devil is in the details.
    I could have told you, for example, that the collective ability of 
our Federal agencies to understand what is happening on their networks 
isn't what it should be.
    But I didn't realize that fewer than half of the 96 agencies 
surveyed can detect encrypted exfiltration of information at target 
levels, or that only 27 percent can detect and investigate attempts to 
access large volumes of data.
    I knew that resource challenges have stunted the maturation of 
programs designed to protect Federal networks, but I was troubled to 
learn that agencies are not equipped to make strategic investment 
decisions with the money Congress provides.
    And, while I could have assumed that agencies could improve their 
cyber incident response procedures or how cyber risks are communicated, 
I could not have predicted that just over half of the agencies surveyed 
had validated cyber incident response roles in the past year and only 
59 percent of agencies have a mechanism to issue enterprise-wide cyber 
threat alerts.
    We have to do better than this.
    The Federal Cybersecurity Risk Determination Report identified 
important actions the Federal Government should undertake to resolve 
existing capability gaps.
    Many of the proposed solutions leverage CDM tools, some of which 
have yet to be fully implemented or may not be deployed any time soon.
    Yesterday, this committee approved legislation Chairman Ratcliffe 
introduced, and which I cosponsored, to make the CDM program more 
robust and more accountable.
    I will be interested to hear from our witnesses about how the 
Federal Government can optimize the potential of CDM and improve its 
implementation.
    Additionally, I would be interested to know if the witnesses 
disagree with any of the action items identified by the Risk 
Determination Report or if there are issues critical to risk management 
that the report failed to address.
    Finally, I will be interested in hearing the witnesses' thoughts 
about the importance of leadership from the White House when it comes 
to improving the cybersecurity of our Federal networks.
    Before I close, I want to point out that we are heading into August 
recess without making any progress toward reauthorization of the 
Chemical Facility Anti-Terrorism Standards (CFATS) program.
    Ranking Member Thompson and I have repeatedly asked the Majority to 
hold oversight hearings with the Department and begin work on 
negotiating informed CFATS reauthorization legislation.
    Neither has happened, and I am concerned that we may not have 
enough legislative days left to get reauthorization past the finish 
line.
    I hope the Majority will make CFATS a priority when we return from 
August recess so we can avoid a temporary extension.
    With that, I thank the witnesses for being here today, and I look 
forward to their testimony.
    I yield back the balance of my time.

    Mr. Ratcliffe. I thank the gentleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 25, 2018
    Good morning. I want to thank Chairman Ratcliffe and Ranking Member 
Richmond for holding today's hearing on the ``State of Federal 
Cybersecurity Risk Determination''.
    At the outset, I would like to echo Ranking Member Richmond's 
disappointment that we are heading into August recess without making 
any meaningful progress on reauthorizing the Chemical Facility Anti-
Terrorism Standards Program (CFATS), which expires in less than 6 
months.
    As far as I know, the CFATS program has bipartisan support on this 
committee. It is also popular with the regulated community, and, most 
importantly, makes our communities safer.
    Given the limited number of legislative days left, I hope this 
committee acts quickly when we return in September to fulfill our 
obligations as authorizers and put CFATS on the track to 
reauthorization.
    Turning to the subject of today's hearing--although I am pleased 
that OMB and DHS have undertaken a review of the risk determination and 
acceptance choices across the Federal Government, I am troubled that 
many of our cybersecurity capabilities are not as mature as they ought 
to be.
    When I joined the Select Committee on Homeland Security in 2003, 
every expert I heard from told me that the Federal Government was 10 
years behind where it should in with respect to cybersecurity.
    Despite the investments we have made since then, it seems we are in 
the same boat--10 years behind where we need to be.
    Federal agencies still struggle to access timely, actionable threat 
information and share it enterprise-wide.
    Agencies still do not have full visibility of what is happening on 
their networks or who has access to different pieces of information.
    And we still have not figured out how to strategically allocate 
funding to address risk.
    Despite the devastating data breaches like the 2015 Office of 
Personnel Management heist of the personal information of 22.1 million 
people, non-defense agencies spent less than $51 million encrypting 
data rest in fiscal year 2017.
    Meanwhile, of the $80 billion we spend annually on IT systems 
across the Federal Government, 80 percent is spent maintaining legacy 
systems that are more vulnerable and less secure.
    We need to start putting our money where the risk is.
    This is not the first time we have heard these recommendations.
    So, there is one thing I would like to know from our witnesses 
today: How can the Federal Government finally jump the 10-year gap 
between where we are and where we should be?
    I know it will take technology. I know it will take money. And, 
importantly, I know it will take leadership.
    I am concerned that the White House has limited its ability to lead 
as effectively as it could in this space by eliminating the 
Cybersecurity Coordinator position and dragging out the appointment of 
the Federal CIO and CIOs and large agencies.
    Nevertheless, as Members of Congress, we will continue our rigorous 
oversight to hold the administration accountable for the action items 
outlined in the Federal Cybersecurity Risk Determination Report and 
Action Plan.
    With that, I look forward to hearing from our witnesses, and I 
yield back the balance of my time.

    Mr. Ratcliffe. We are pleased to have a distinguished panel 
of witnesses before us today on this very important topic.
    Mr. Ken Durbin is a senior strategist of global government 
affairs for Symantec. Mr. Durbin has been providing compliance 
and risk management solutions to the public sector for over 25 
years and has authored multiple articles on CRM issues. Thank 
you for being here this morning.
    Ms. Summer Fowler is the technical director for the 
cybersecurity, risk, and resilience in the Software Engineering 
Institute at Carnegie Mellon. In this role Ms. Fowler is 
responsible for executing the strategic plan for a research 
portfolio focused on improving the security and resilience of 
organizational assets. Ms. Fowler, thank you for being here to 
provide your insights today.
    Finally, Mr. Ari Schwartz is the managing director of 
cybersecurity services in the risk management group of Venable. 
Mr. Schwartz is testifying today on behalf of the Cybersecurity 
Coalition and Center for Cybersecurity Policy and Law.
    Prior to his time at Venable, Mr. Schwartz served on the 
National Security Council as a special assistant to the 
President, and senior director for cybersecurity. Thank you for 
being here today Mr. Schwartz.
    I would now ask the witnesses to stand and raise your right 
hand, so I can swear you in to testify.
    [Witnesses sworn.]
    Let the record reflect that each of the witnesses has been 
so sworn. You may be seated.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Mr. Durbin for 5 minutes for his 
opening statement.

 STATEMENT OF KEN DURBIN, SENIOR STRATEGIST, GLOBAL GOVERNMENT 
                       AFFAIRS, SYMANTEC

    Mr. Durbin. Chairman Ratcliffe, Ranking Member Richmond, 
thank you for the opportunity to testify.
    I would like to start by setting the stage with regards to 
the current threat landscape. Attackers continue to evolve; to 
avoid detection, attackers are employing what we call living-
off-the-land--using operating system features or legitimate 
network administration tools to compromise victim's networks.
    Using good programs to do bad things is difficult to detect 
because it is disguised as normal operations. We recently 
discovered one such attack that had compromised satellite 
operators, telecommunications companies, and a defense 
contractor.
    We identified the attack using an advanced hunting tool we 
call ``Targeted Attack Analytics'' which crawls through massive 
datasets looking for minute indicators of malicious activity.
    Cryptojacking is another common attack. We have seen the 
rise of a new category of web-based coin-miner attacks that use 
an individual's browser to hijack their computer's processing 
power to mine cryptocurrency. Detections of coin-miners on 
endpoint computers increased by 8,500 percent in 2017.
    We saw an uptick in supply chain attacks where attackers 
hijacked software updates to gain entry to well-guarded 
networks. The Petya outbreak was the most notable example of a 
supply chain attack. Attackers used accounting software as the 
point of entry.
    Now turning to the Federal Cybersecurity Risk Determination 
Report and Action Plan, the report is a tough but fair 
assessment of the current state of the Executive branch's 
cybersecurity posture and it looks to build on existing 
security frameworks to make improvements.
    I want to take a moment to commend OMB for recognizing the 
value of the NIST Cybersecurity Framework or CSF as a tool to 
improve the current state of the Executive branch's risk 
management efforts.
    Typically, an agency collects data from over 200 FISMA 
controls, across 10 control families, to evaluate cybersecurity 
readiness. That same data can be consolidated into the 5 CSF 
functions for a clearer view into their cyber readiness. The 
report made several recommendations.
    In the first the report notes that 38 percent of Federal 
cyber incidents did not have an identified attack vector and 
recommends implementing the Cyber Threat Framework or CTF to 
help categorize cybersecurity risks. However, it is not clear 
how categorizing attacks would have helped protect against the 
cyber events that compromised information and systems.
    To reduce the number of identified attacks, I recommend 
that along with implementing the CTF, OMB put a strong emphasis 
on cybersecurity solutions that automate the detection and 
remediation of cyber events through communication between 
strategic control points, hunting for indicators that are 
compromised.
    I commend OMB's efforts to develop a risk-based budget 
process to direct IT purchases to reduce identified risk. 
Another way to reduce identified risk would be to require 
agencies to add recommendations contained in IG FISMA audits as 
line items in their budget requests to ensure they receive 
adequate prioritization.
    The report also recommends standardizing IT and 
cybersecurity capabilities. This can be achieved through the 
Continuous Diagnostics and Mitigation or CDM program. CDM 
achieves the same goals by focusing on standardized 
capabilities rather than a standardized vendor. However, the 
CDM program needs to be accelerated: 5 years after CDM was 
launched, phase 1 to 4 has still not been fully deployed.
    The third recommendation is to consolidate agency security 
operation centers to improve overall incident detection and 
response. While this is part of the solution, detecting the ex-
filtration of data requires more than consolidation, which 
brings me to the fourth recommendation, accountability.
    I want to focus on the data-level protection's aspect of 
this recommendation. Far too often we see the Government equate 
data-level protection with the encryption of data. While 
encryption is important, the Government's focus needs to be 
expanded to include prevention, specifically data loss 
prevention or DLP. DLP can discover and categorize sensitive 
data and can enforce policies about what can be done with that 
data. DLP can automatically encrypt data before it is 
transmitted even if the end-user forgot to encrypt it 
themselves.
    I recommend that DHS advance the data protection phase of 
CDM which would have the added benefit of protecting the high-
value assets identified by agencies during the 2015 Cyber 
Sprint.
    I hope these observations build on OMB's recommendations 
and maximize their ability to improve our Government 
cybersecurity posture.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Durbin follows:]
                    Prepared Statement of Ken Durbin
                             July 25, 2018
    Chairman Ratcliffe, Ranking Member Richmond, my name is Ken Durbin, 
CISSP, and I am a senior strategist for Symantec Global Government 
Affairs and Cybersecurity. I have been providing solutions to the 
public sector for over 30 years. My focus on compliance and risk 
management (CRM) and the critical infrastructure sector has allowed me 
to gain insights into the challenge of balancing compliance with the 
implementation of cybersecurity solutions. Additionally, I focus on the 
standards, mandates, and best practices from NIST, OMB, DHS, SANS, etc. 
and their application to CRM. I spend a significant amount of my time 
on the NIST Cybersecurity Framework (CSF)\1\, the DHS CDM Program and 
the emerging EU Global Data Protection Regulation (GDPR.)
---------------------------------------------------------------------------
    \1\ NIST Cybersecurity Framework (CSF): Provides guidance to 
private companies on how best to prevent, detect, and respond to cyber 
attacks.
---------------------------------------------------------------------------
    Symantec Corporation is the world's leading cybersecurity company 
and has the largest civilian threat collection network in the world. 
Our Global Intelligence Network<SUP>TM</SUP> tracks over 700,000 global 
adversaries, records events from 126.5 million attack sensors world-
wide, and monitors threat activities in over 157 countries and 
territories. Additionally, we process more than 2 billion emails and 
over 2.4 billion web requests each day. We maintain 9 Security Response 
Centers and 6 Security Operations Centers around the globe, and all of 
these resources combined give our analysts a unique view of the entire 
cyber threat landscape. On our consumer side, we combined Norton 
Security with LifeLock's Identity and Fraud Protection to deliver a 
comprehensive cyber defense solution to a growing consumer base of 
nearly 4.5 million people.
    In my testimony I will provide:
  <bullet> an overview of the current threat landscape, including 
        highlights of our 2018 Internet Security Threat Report 
        (ISTR),\2\
---------------------------------------------------------------------------
    \2\ https://www.symantec.com/security-center/threat-report.
---------------------------------------------------------------------------
  <bullet> an assessment of the Federal Cybersecurity Risk 
        Determination Report and Action Plan that was released in May,
  <bullet> high-level recommendations on addressing some of challenges 
        highlighted in the report.
                          the threat landscape
    From the recent Thrip attack on satellite and telecommunications 
systems to the spread of WannaCry and Petya/NotPetya, to the rapid 
growth in coinminers, the past year has provided us with many reminders 
that digital security threats can come from new and unexpected sources. 
With each passing year, not only has the sheer volume of threats 
increased, but the threat landscape has become more diverse, with 
attackers working harder to discover new avenues of attack and cover 
their tracks while doing so. Symantec's annual ISTR provides a 
comprehensive view of the threat landscape, including insights into 
global threat activity, cyber criminal trends, and motivations for 
attackers. Below are some key highlights from this year's report and 
our recent work.
Attackers are Evolving
    Last month, we issued a report about a previously unknown attack 
group known as Thrip.\3\ Thrip is a sophisticated attacker that used a 
technique we call ``living off the land''--using operating system 
features or legitimate network administration tools to compromise 
victims' networks. Simply put, they use good programs to do bad things. 
These types of attacks are difficult to detect because malicious 
activity is disguised as normal system operations. This continued a 
trend we reported on in the ISTR, that attackers are relying less on 
malware and zero-day vulnerabilities. Instead, they are looking for new 
attack vectors that make less ``noise'' and can be hard for some 
defenders to detect.
---------------------------------------------------------------------------
    \3\ https://www.symantec.com/blogs/threat-intelligence/thrip-hits-
satellite-telecoms-defense-
targets?om_ext_cid=biz_social_NAM_twitter_Asset%2BType%2B%2B-
%2BBlog,Campaign%2B-%2BThreat%2BAlert.
---------------------------------------------------------------------------
    When we discovered Thrip, they had already compromised satellite 
operators, telecommunications companies, and a defense contractor. We 
identified this malicious activity using an advanced hunting tool we 
call Targeted Attack Analytics, which crawls through massive data sets 
looking for minute indicators of malicious activity. When we find 
something--like Thrip--we update our protections to stop it in the 
future. Thrip was not the first living off the land attack, and it will 
not be the last, and defenders must evolve to stay ahead of the next 
attack.
Cryptojacking
    During the past year, an astronomical rise in cryptocurrency values 
triggered a cryptojacking gold rush with cyber criminals attempting to 
cash in on a volatile market. This gave rise to a new category of 
malware called ``coinminers'' that attach to an individual's browser 
and utilizes their computers processing power to mine cryptocurrency. 
Detections of coinminers on endpoint computers increased by 8,500 
percent in 2017. With a low barrier of entry--only requiring a couple 
lines of code to operate--cyber criminals are harnessing stolen 
processing power and cloud CPU usage from consumers and enterprises to 
mine cryptocurrency. Coinminers can slow devices, overheat batteries, 
and in some cases, render devices unusable. For enterprise 
organizations, coinminers can put corporate networks at risk of 
shutdown and inflate cloud CPU usage, adding cost. Macs are not immune 
either, with Symantec detecting an 80 percent increase in coinmining 
attacks against Mac OS. By leveraging browser-based attacks, criminals 
do not need to download malware to a victim's Mac or PC to carry out 
cyber attacks.
IoT
    IoT devices continue to be ripe targets for exploitation. Symantec 
found a 600 percent increase in overall IoT attacks in 2017, which 
means that cyber criminals could exploit the connected nature of these 
devices to mine en masse.
Targeted Attack Groups
    The number of targeted attack groups is on the rise with Symantec 
now tracking 140 organized groups. Last year, 71 percent of all 
targeted attacks started with spear phishing--the oldest trick in the 
book--to infect their victims. As targeted attack groups continue to 
leverage tried and true tactics to infiltrate organizations, the use of 
zero-day threats is falling out of favor. Only 27 percent of targeted 
attack groups have been known to use zero-day vulnerabilities at any 
point in the past. The security industry has long discussed what type 
of destruction might be possible with cyber attacks. This conversation 
has now moved beyond the theoretical, with 1 in 10 targeted attack 
groups using malware designed to disrupt.
Supply Chain Attacks
    Symantec identified a 200 percent increase in attackers injecting 
malware implants into the software supply chain in 2017. That's 
equivalent to 1 attack every month as compared to 4 attacks the 
previous year. Hijacking software updates provides attackers with an 
entry point for compromising well-guarded networks. The Petya outbreak 
was the most notable example of a supply chain attack. After using 
Ukrainian accounting software as the point of entry, Petya used a 
variety of methods to spread laterally across corporate networks to 
deploy their malicious payload.
Ransomware for Profit
    In 2016, the profitability of ransomware led to a crowded market. 
In 2017, the market made a correction, lowering the average ransom cost 
to $522 and signaling that ransomware has become a commodity. Many 
cyber criminals may have shifted their focus to coin mining as an 
alternative to cashing in while cryptocurrency values are high. 
Additionally, while the number of ransomware families decreased, the 
number of ransomware variants increased by 46 percent, indicating that 
criminal groups are innovating less but are still very productive.
 assessment of the federal cybersecurity risk determination report and 
                              action plan
    The Office of Management and Budget (OMB), in response to 
Presidential Executive Order (EO) 13800, Strengthening the 
Cybersecurity of Federal Networks and Critical Infrastructure, produced 
a report that provides a tough but fair assessment of the current state 
of the Executive branch's Cybersecurity Posture. The EO and the report 
builds upon the efforts of previous administrations and works within 
existing frameworks, including FISMA,\4\ FITARA,\5\ CDM,\6\ and CSF. 
While none of these are perfect, OMB sees their value and seeks to 
improve them. The EO held OMB to a tight time line in which to produce 
the report and OMB held agencies to a similarly aggressive time line. 
This alone sent a strong message, both about the seriousness of the 
situation and about the administration's commitment to improving the 
Executive branch's cybersecurity posture.
---------------------------------------------------------------------------
    \4\ Federal Information Security Management Act: Requires 
Government agencies to implement security systems to protect 
information and information systems.
    \5\ Federal Information Technology Acquisition Reform Act: Changed 
the way the Federal Government buys and manages its computer 
technology.
    \6\ Continuous Diagnostics and Mitigation: Four-phase program that 
monitors what is on a network, who is on a network, what is happening 
on a network, and how data is protected for Federal agencies.
---------------------------------------------------------------------------
    As a threshold matter, I would like to commend the administration 
and OMB for recognizing the value of the CSF as a tool to improve the 
current state of the Executive branch's risk management efforts. The 
CSF's power is its ability to take a complex set of cybersecurity data 
and present them in a clear, logical, and simplified way such that one 
does not need to be a cyber expert to gain valuable insight and make 
important decisions. For example: An agency now needs to collect data 
from over 200 FISMA controls across 10 control families to evaluate 
cybersecurity readiness. That same data can be consolidated into the 5 
CSF functions (identify, protect, detect, respond, and recover) for a 
clearer view into their cyber readiness.
Recommendation No. 1: Increase Cybersecurity Threat Awareness
    To highlight the need for increasing cybersecurity threat 
awareness, the report points out that ``38 percent of Federal cyber 
incidents did not have an identified attack vector.'' This equates to 
11,802 cyber incidents that ``led to the compromise of information or 
system functionality in fiscal year 2016.'' To improve this situation 
the report recommends implementing the Cyber Threat Framework (CTF) 
with the idea that it will help prioritize and manage cybersecurity 
risks. The CTF was developed to enable consistent characterization and 
categorization of cyber threat events; in other words, to provide a 
common lexicon to describe and understand threats. This, of course is a 
worthwhile pursuit, but it is not clear how the CTF would have helped 
protect against the 11,802 cyber events that compromised information 
and systems.
    I recommend that, along with implementing the CTF, OMB put a strong 
emphasis on cybersecurity solutions that can automate the detection and 
remediation of cyber events. Automated cybersecurity solutions that can 
communicate between strategic control points hunting for indicators of 
compromise (IoCs) will help to reduce the number of unidentified 
attacks, and reduce the burden caused by the shortage of qualified 
cyber professionals.
    I applaud OMB's efforts to develop a risk-based budgeting process 
to help direct IT purchases toward products, solutions, and services 
that will have a direct impact on reducing identified risk. OMB may 
want to consider taking this effort one step further to address one 
long-standing issue around agency IG Report recommendations. IG Reports 
regularly contain risk-based recommendations that are carryovers from 
previous year's reports, and often they remain unresolved due to budget 
or staffing issues. Adding IG recommendations as line items in an 
agency's budget request could be a way to ensure the recommendations 
receive adequate prioritization. Additionally, DHS has modified the CDM 
program to allow agencies to submit Requests for Service (RFS) to 
fulfill specific needs. Known as CDM DEFEND, this may be another 
vehicle to address risk-based procurement.
Recommendation No. 2: Standardize IT and Cybersecurity Capabilities
    This recommendation harkens back to the massive GSA ``desktop'' 
contracts of the 1980's and 1990's. For the most part those contracts 
mandated a standardized PC platform with specific software 
preinstalled. (The original contract required a Zenith 286 with DOS, 
Harvard Graphics, Lotus123, and WordStar.) This did have some of the 
same advantages spelled out in the report, including consistent 
software versions, ease of patching, known configurations, and 
simplified troubleshooting. The downside was that even if a competitor 
of Zenith had a better PC it was next to impossible to justify not 
using the desktop contract.
    I believe the Continuous Diagnostics and Mitigation (CDM) concept 
achieves the goals set forth in this recommendation by focusing on 
standardized capabilities rather than a standardized vendor. However, 
in order to be effective in meeting this goal, the CDM Program will 
need move faster--5 years after CDM was launched Phase 1 has still not 
been fully deployed. DHS has taken steps to accelerate the program, 
launching CDM DEFEND, which utilizes the GSA Alliant Contract and 
extends the period of performance of awarded Task Orders.
Recommendation No. 3: Consolidate Agency SOCs
    Redundant Security Operation Centers (SOCs) working in silos are 
ineffective when trying to defend an enterprise. Consolidating SOCs and 
coordinating their efforts will improve overall incident detection and 
response. OMB states that only 47 percent of agencies can detect 
encrypted exfiltration incidents, and only 27 percent have the ability 
to detect an exfiltration attempt. Consolidation is part of the 
solution but detecting the exfiltration of data by a SOC across an 
agency, especially a Federated agency requires more than consolidation. 
A SOC must have the right tools in place to tag and monitor the 
activity of sensitive data on an endpoint, server, data center, in 
storage, or in the cloud. A SOC also needs the ability to look into 
encrypted traffic and scan for sensitive data and malware. If a SOC 
does detect a data exfiltration threat, the SOC needs to have a 
solution in place to mitigate the threat, preferably utilizing 
automation.
Recommendation No. 4: Drive Accountability Across Agencies
    I would like to focus on the ``data-level protections'' aspect of 
this recommendation. OMB acknowledges the call from industry, privacy 
advocates, and the GAO for an increased focus on data-level 
protections. However, the Government must expand the scope of data-
level protection to include data-level prevention as well. Far too 
often we see the Government equate data-level protection with the 
encryption of data, both in transit and at rest. Encryption is 
important, but its focus is limited to data ``protection.'' This 
thinking needs to be expanded to include prevention--specifically 
``data-loss prevention'' (DLP) capabilities that prevent the misuse of 
data in the first place. DLP solutions can discover where sensitive 
data lives, categorize the data based on its sensitivity and control 
who has access to the data. DLP can also enforce policies that describe 
what can be done with data. For example, DLP can block data from being 
copied to a thumb drive, emailed to a personal email account, block 
access to data from certain locations, or during certain times. DLP can 
even automatically encrypt data before its transmitted even if the end-
user forgot to encrypt it themselves.
    CDM is slated to address Data Protection in Phase 4 of the Program. 
I recommend that DHS advance Data Protection so it is implemented 
concurrently with on-going and planned CDM Task Orders. This would have 
the added benefit of maximizing the effort undertaken by agencies 
during the OMB mandated Cyber Sprint of 2015 and its follow-on 
components. Under the Cyber Sprint agencies were to identify their 
``high-value'' assets but were not provided with solutions to protect 
those assets. The Data Protection capabilities of CDM, along with CDMs 
funding would go a long way toward protecting high-value assets in a 
timely manner.
                               conclusion
    This committee understands as well as anyone that cyber threats are 
growing in number and complexity at an alarming pace and that 
Government agencies continue to be an attractive target. The OMB report 
takes a clear-eyed and unbiased look at the current state of our 
cybersecurity preparedness and does not shy away from pointing out 
areas that need significant improvement, and makes recommendations that 
build upon proven efforts of previous administrations. I hope my ideas 
can build on OMB's recommendations and maximize their ability to 
improve our Government's cybersecurity posture. Thank you for the 
opportunity to testify before this committee, and I would be happy to 
take any questions you may have.

    Mr. Ratcliffe. Thank You, Mr. Durbin.
    The Chair now recognizes Ms. Fowler for 5 minutes.

 STATEMENT OF SUMMER FOWLER, TECHNICAL DIRECTOR, CYBERSECURITY 
  RISK AND RESILIENCE, SOFTWARE ENGINEERING INSTITUTE, CERT, 
                   CARNEGIE MELLON UNIVERSITY

    Ms. Fowler. Good morning.
    Thank you, Chairman Ratcliffe, Ranking Member Richmond, and 
all subcommittee Members for this opportunity. On behalf of my 
team at Carnegie Mellon University's Software Engineering 
Institute CERT Cybersecurity Program or SEI, I am excited to 
contribute today and share our research and experience in cyber 
risk determination.
    OMB's May 2018 report as has been noted contains four core 
recommendations that we believe are excellent steps to 
improving Federal cybersecurity posture.
    Our work at the SEI can build on and enhance these 
recommendations. Cyber risk management requires analysis and 
mitigation of two sides, both the threat and of the consequence 
or impact of risks that occur.
    We know that our cyber exposure is increasing as software 
is embedded in more aspects of our lives and Government 
operations and our adversaries are using these exposures to 
launch more frequent and more sophisticated attacks. 
Understanding these threats is important but cyber risk 
management is not only about managing cyber attack--failures of 
technology, breakdowns in governance or process, human errors, 
and even physical phenomena like natural disasters, are also 
cyber risks.
    Addressing cyber risks holistically requires a resilience 
approach, a word I was very happy to hear Mr. Ratcliffe using, 
and that approach focuses on mitigating the impact of any type 
of disruptive event. Operational resilience is the ability to 
achieve mission objectives before, during, and after any 
disruptive event, whether it is a cyber attack or a system 
failure. Fundamental to operational resilience is identifying 
and prioritizing assets that are critical to each 
organization's mission.
    Our team at the SEI has codified operational resilience in 
the CERT Resilience Management Model. We have applied this 
model in partnership with DHS by assessing over 600 
organizations across all 16 critical infrastructure sectors. 
These voluntary assessments provide organizations with the 
baseline understanding of their cybersecurity capabilities. The 
assessment team also provides the organization with resource 
guides and recommendations on how to make improvements.
    The CERT RMM is used as a way to measure capabilities 
against the NIST Cybersecurity Framework and other industry 
standards but the operational resilience approach moves beyond 
checklist compliance, to enable organizations to make 
demonstrable steps to improve cybersecurity posture.
    Most importantly CERT RMM does not require an organization 
to start a new cybersecurity program. It allows an organization 
to baseline capabilities and build a road map for improvement 
that is both complimentary to and improves organization's 
inputs to Federal programs like the DHS CDM program. CERT RMM 
also provides a structured way for organizations to identify, 
analyze, and mitigate the risks of older, or legacy, 
information technology as was noted in the OMB report as a 
major concern.
    In many cases as the report recommends, depreciated legacy 
systems will be modernized or moved to platforms like the 
cloud. The asset management practices in CERT RMM ensure that 
the highest-priority assets for each organization are addressed 
first but introducing new capabilities like the Cloud also 
introduces new cyber risks.
    CERT RMM provides structured guidance on the management of 
supply chain including new ways to continuously measure and 
manage the risks of third-party dependencies. A holistic 
resilience approach is especially important as the Government 
integrates cyber physical systems into the Federal landscape. 
Cyber physical systems are often built with functionality as a 
primary goal and cybersecurity as a secondary or tertiary goal 
at best.
    The military and Federal Government are adopting cyber 
physical systems in areas like medical devices, in VA 
hospitals, and census collection capabilities.
    To mitigate cyber risks, we must address both threats and 
consequences in a balanced way with the focus on prioritization 
of assets that are most critical to our mission.
    Thank you for the opportunity to participate today and to 
discuss how we can advance cyber risk determination and 
management through operational resilience practices.
    [The prepared statement of Ms. Fowler follows:]
                  Prepared Statement of Summer Fowler
                             July 25, 2018
    Chairman Ratcliffe and Ranking Member Richmond, thank you for the 
opportunity to participate in this hearing on assessing cybersecurity 
risk. I am the technical director of cybersecurity risk and resilience 
for the CERT division, part of Carnegie Mellon University's Software 
Engineering Institute (SEI)\1\, a Department of Defense (DoD) 
Federally-Funded Research and Development Center (FFRDC). The SEI 
conducts research and development in software engineering and 
cybersecurity, working to transition new and emerging innovations into 
Government and industry. The SEI holds a unique role as a FFRDC 
sponsored by the DoD that is also authorized to work with organizations 
outside of the DoD, including engagement across the Federal Government, 
the private sector, and academia. As such, we have been working with 
Department of Homeland Security's critical infrastructure protections 
since they were established in 2013. Our research, prototyping, mission 
application, training, and education activities are heavily 
interrelated and are relevant to a broad range of problem sets, such as 
protection of the Nation's critical infrastructure and improved 
software engineering for large-scale systems of systems.
---------------------------------------------------------------------------
    \1\ https://www.sei.cmu.edu/.
---------------------------------------------------------------------------
    Disruptions of critical functions that are reliant on computer 
systems are inevitable. No organization, government, or agency can 
anticipate every disruption or prevent every cyber attack. Agencies 
must be able to anticipate and respond to changes in their risk 
environment at a moment's notice. Furthermore, despite these 
disruptions, organizations should be capable of continuing operations 
and meeting mission goals.
    We at the SEI applaud the work of the Office of Management and 
Budget, detailed in the May 2018 report ``Federal Cybersecurity Risk 
Determination Report and Action Plan.'' As a high-level assessment of 
Government cybersecurity risks, the report identifies four core actions 
that I believe will indeed, done correctly, mitigate a significant 
number of cyber risks across the Federal agencies.
    Notwithstanding, there are some finer points, not included in the 
report that are worth discussing and implementing. First, the report 
concentrates on only one half of cyber risk management. In order to 
successfully execute cyber risk management, agencies must ensure they 
analyze and manage cyber risk or threats as well as the potential 
impact of the cyber risks and threats on their organization. While the 
report concentrates on the threat of cybersecurity and proposes better 
understanding of the cyber risk, outlining the potential effect of any 
realized threat requires just as much effort.\2\ If agencies are to 
achieve the ability to complete their mission no matter the cyber 
threat, it is imperative that we manage both the cyber threat and the 
consequences of the attacks.
---------------------------------------------------------------------------
    \2\ As reinforced in NIST 800.39, Managing Information Security 
Risk Organization, Mission, and Information System View and NIST 
800.37, Guide for Applying the Risk Management Framework to Federal 
Information Systems A Security Life Cycle Approach.
---------------------------------------------------------------------------
    Accomplishing this continuity of operations requires a resilience 
approach to cybersecurity--an integrated, holistic way to manage 
security risks, business continuity, disaster recovery, and IT 
operations, executed in the context of each organization's mission and 
strategy.
    Second, by the report's own admission, it does not cover older, 
legacy information technology (IT) or workforce challenges. Both legacy 
IT and the workforce shortage are significant and must be addressed if 
the Federal enterprise is to understand the current cyber risk 
environment and credibly prepare for the future.
    The SEI's Enterprise Risk and Resilience research includes 
advancing cyber risk management and enhancing it via the planning, 
integration, execution, and governance of operational resilience. We 
leverage our research to develop best practices, resilience management 
models, tools, and techniques for measuring and improving enterprise 
risk management and operational resilience in the form of actionable 
guidance for the DoD and Federal civilian agencies.
                         operational resilience
    Operational Resilience is the ability to continue to operate, and 
to meet the organization's mission, in the face of evolving cyber 
conditions. In the ever-changing cyber and technological landscape, 
organizations need techniques that allow people, processes, and systems 
to adapt to changing patterns. These patterns include the incessant 
introduction of both unique threat actors and the means by which 
systems are exploited. Operational resilience is obtained by ensuring 
your cyber risk management takes into account both the threat and the 
consequences of cyber risk.
    Cyber risk management, as proposed by the report, is a process to 
identify, analyze, dispose of, monitor, and adjust approaches to 
handling threats. Yet we know cyber risk management alone is not enough 
to ensure that we are prepared to address current and emerging threats. 
The concept of risk management must adhere to formula between 
likelihood of threat and consequence of impact.
    At the SEI we have found cyber risk is best managed by determining 
potential impact first. This requires articulation of mission, 
enumeration of critical services or activities to achieve mission, and 
asset management.\3\ Once critical assets are identified, then we can 
walk back toward a list of specific threat types and threat actors. 
Cyber professionals whose efforts are concentrated in the assessment of 
threats are often doing very good cybersecurity work; however, without 
consideration of impact and asset management, they may not be 
protecting the assets most critical to that particular organization. 
Focusing on mission objectives and critical assets creates operational 
resiliency in an organization regardless of the source or type of 
threat. This focus on mission context also improves the ability to 
communicate risk, ultimately helping to address finding No. 4 in the 
OMB report.
---------------------------------------------------------------------------
    \3\ Asset management is a collection of practices to identify and 
prioritize the people, processes, data, technology, and facilities 
required to execute the activities.
---------------------------------------------------------------------------
    Examining consequences helps organizations to identify and mitigate 
operational risks that could lead to service disruptions before they 
occur. Organizations can then prepare for and respond to disruptive 
events in a way that demonstrates balance of command and control of 
threat mitigation, incident response, and service continuity. Finally, 
by establishing a robust understanding of assets, agencies can 
prioritize investments needed to protect, respond, recover, and restore 
mission-critical services and operations after an incident and within 
acceptable time frames.
    Considering impact is key for comprehensive cyber risk management 
leading to resilience. If an agency looks only to malicious threats to 
operations, it risks missing 17 percent (1 in 5) of overall data 
breaches, which are the result of human error. In the health care and 
information industries, these errors are much higher at 35 percent and 
26 percent respectively.\4\ Organizations cannot overlook the role of 
humans in the management of cyber risks. A malicious act of deliberate 
sabotage or the unintentional actions of a confused system operator can 
both lead to a profound disruption. A resilience approach is agnostic 
of the type of disruption and enables the organization to plan for, 
avoid, detect, respond to, and recover from incidents including natural 
disasters, human error, or malicious cyber attacks.
---------------------------------------------------------------------------
    \4\ Verizon 2018 Data Breach Investigations Report, https://
www.verizonenterprise.com/resources/reports/
rp_DBIR_2018_Report_execsummary_en_xg.pdf.
---------------------------------------------------------------------------
    Furthermore, in today's ever-increasing global economy, many 
organizations depend on external entities for information and 
technology, increasing the potential risk to their missions and key 
services. These third-party entities are an extension of the 
organization and are often given a trusted place in the management of 
systems and processes. When trust in an external entity is misplaced or 
misused, the consequences can be significant. Examples include breaches 
due to a third party's failure to protect data, poor integrity of 
hardware and software deployed within an organization, or malicious use 
of trusted extrinsic relationships to gain access to or harm the 
organization. Agencies must approach the management of supply chain, 
also called third-party or external dependencies, with a risk-based 
approach. This approach includes adopting new ways of continuously 
measuring and managing the risk from external dependencies.
    Additionally, agencies can and should determine the maturity of 
their external dependencies-management practices. Guided by specific 
service-level agreements, which establish meaningful measures of 
cybersecurity performance, agencies can better understand and manage 
the capabilities of their external dependencies, thus increasing 
organizational resiliency. For example, external dependencies 
management is especially critical as the Government continues to 
modernize its IT capabilities using cloud service providers.
    Last, for true operational resilience, agencies must move beyond 
simplistic checklist compliance or penetration testing and take 
demonstrable steps to improve cybersecurity posture. Our team at 
Carnegie Mellon University has codified operational resilience in the 
CERT Resilience Management Model (CERT-RMM).\5\ Developed by deriving 
practical tools and methods from the best concepts that academia has to 
offer and best practices from the public and private sectors, CERT-RMM 
has been applied to measure and evaluate organizations of all sizes and 
compositions. Developed initially in collaboration with members of the 
financial services community, CERT-RMM has been used more than 600 
times by the Department of Homeland Security to measure the cyber 
resilience across all 16 critical infrastructure sectors. CERT-RMM can 
also be used as a way to measure capabilities against the NIST 
Cybersecurity Framework. Enabling agencies both to ensure compliance 
and to show measurable improvement in cybersecurity posture, CERT-RMM 
provides a resource guide mapped to several industry and Government 
standards.
---------------------------------------------------------------------------
    \5\ https://resources.sei.cmu.edu/library/asset-
view.cfm?assetid=508084.
---------------------------------------------------------------------------
    Most importantly, CERT-RMM is a framework that does not require 
agencies to start over, but allows every organization, whatever its 
current competence, a way to assess baseline capabilities and develop a 
roadmap for improvement as an enhancement to cyber risk management. 
This also enables a way to address the next topic of legacy information 
technology (IT).
                               legacy it
    Organizations do not have unlimited resources with the option of 
replacing older systems and software en masse to help mitigate new 
cybersecurity threats. Most, in both Government and the private sector, 
have a mix of old and new systems all connected to each other and most 
likely accessible to threat actors via the internet. While layers of 
safeguards are placed between these systems and the outside world, 
legacy IT remains a serious concern and has led to many notable cyber 
breaches despite these defenses. Knowing where the most fragile legacy 
IT systems are located is essential. Consequently, at a minimum an 
organization must engage in effective asset management to gain a 
detailed inventory of IT. Without a valid inventory, accompanied by a 
network map, it is unlikely any organization could adequately defend 
itself or have appropriate continuity plans in place. Moving these 
deprecated legacy systems to a more secure platform, like the cloud, is 
a valid and appealing option. Asset management practices enable us to 
prioritize what needs to be moved in order to ensure that our highest-
priority assets are addressed first. Asset management practices are key 
ingredients that allow an analysis of the risk and reward of migrating 
legacy IT to new operating models such as third-party cloud service 
providers.
                         workforce development
    It is not a secret; there is a shortage of experienced and capable 
cybersecurity personnel. Some studies indicate that the global 
workforce shortage will reach almost 2 million by 2022.\6\ Furthermore, 
Federal agencies face stiff competition from private industry for the 
limited supply of cyber professionals that do exist. Consequently, 
organizations need a long-term plan for amplifying their cybersecurity 
capabilities. Agencies would benefit from an accurate and objective 
evaluation of their cyber workforce, and with the right methods and 
technologies, organizations can identify gaps in essential competencies 
that are unique to their workforce. This allows agencies to make 
better, targeted, hires as well as continuing education decisions for 
current employees, resulting in more efficient use of taxpayer dollars. 
It will take a combination of strategic hiring and developing staff in 
parallel to meet the need for qualified resources. Programs like 
Scholarship for Service,\7\ which provides tuition and stipends to 
students studying cybersecurity and related fields, represent a vital 
pipeline of cybersecurity professionals for the Federal Government. 
Agencies should leverage these options, along with partnerships and 
training such as the Carnegie Mellon University CISO Executive 
Certificate Program or incident handling courses, to maximum advantage 
in their workforce development strategies.
---------------------------------------------------------------------------
    \6\ https://iamcybersafe.org/gisws/.
    \7\ https://www.sfs.opm.gov/--CMU-SEI is a participating 
institution.
---------------------------------------------------------------------------
    Additionally, we need to make cybersecurity an integrated part of 
our educational curricula starting with our youngest students. 
Following the 2007 cyber attacks that crippled dozens of its government 
and corporate sites, Estonia evolved its approach to cybersecurity to 
include robust educational programs at all age levels and is now 
recognized as having the best cybersecurity in Europe. In 1961 our 
Nation committed to a dramatic expansion of our space program with a 
goal of being the first nation to land a human on the moon. Similarly, 
addressing our cyber risks with the goal of a Federal Government that 
is resilient against current and future cyber disruptions requires a 
National initiative to prepare our workforce. It is essential that we 
commit to research in emerging areas like artificial intelligence, 
autonomy, and data analytics methods, and the corresponding training, 
that will advance our cyber risk management practices in the future.
                               conclusion
    Cyber risks are not unlike other risks that organizations face. 
Constrained by limited resources, we must mitigate cyber risks by 
addressing both threats and consequences in a balanced way. The goal is 
to ensure that we are operationally resilient, preserving the ability 
to achieve our mission, despite any disruptions, such as cyber attacks. 
To be resilient requires us to understand and prioritize our assets, 
including technology, data, facilities, as well as people and 
processes, so that we can invest in the protection and continuity of 
the assets most critical to our mission. This is a fundamental concept 
in operational resilience practices that will enhance Federal cyber 
risk management capabilities.
    Addressing these challenges and the actions listed in the report is 
even more necessary as we address the integration and risks of cyber 
physical systems (CPS) in the Federal landscape. Cyber physical systems 
already exist in manufacturing, health care, automotive systems, and 
financial services to name a few. These CPS systems were often built 
with functionality as a goal and cybersecurity as a secondary or 
tertiary consideration at best. The U.S. military and Federal 
Government are also integrating CPS in areas like medical devices in VA 
hospitals, internet of things capabilities in the U.S. Mint, or census 
collection activities. These capabilities present new attack surfaces 
for our adversaries and require that we advance our cybersecurity risk 
management practices with a focus on operational resilience.
    Thank you again for the opportunity to participate in this hearing 
and to discuss how we can better address cyber risks through 
operational resilience practices.

    Mr. Ratcliffe. Thank you, Ms. Fowler.
    The Chair now recognizes Mr. Schwartz for 5 minutes for his 
opening statement.

 STATEMENT OF ARI SCHWARTZ, MANAGING DIRECTOR OF CYBERSECURITY 
  SERVICES, CYBERSECURITY RISK MANAGEMENT GROUP, VENABLE LLP, 
TESTIFYING ON BEHALF OF THE CYBERSECURITY COALITION AND CENTER 
                FOR CYBERSECURITY POLICY AND LAW

    Mr. Schwartz. Chairman Ratcliffe, Ranking Member Richmond, 
and Members of the committee, thank you for the opportunity to 
appear before you today to discuss our views on the Federal 
Cybersecurity Risk Management.
    I do so in my role as coordinator of the Cybersecurity 
Coalition, the leading policy coalition of companies that 
develop cybersecurity products and services.
    These issues before us today are not new. Twelve years ago, 
I was on an advisory board, the Information Security Privacy 
Advisory Board that NIST hosts, and at that time the chairman 
of the Government Reform Committee was Tom Davis at the time, 
would give grades to Cabinet agencies on how they were doing on 
cybersecurity.
    We had before our advisory board the deputy CIO of one 
agency that had consistently failed for the past 8 years and so 
I took this time, and this deputy CIO was actually retiring 
from Government service at that time, so I thought that this 
was a good opportunity to hear from him directly as to why 
Government agencies continued to fail. I asked the question you 
know, what would it take for you to do to succeed?
    He said, ``Well you know, one time many years ago I got a 
D, right? We got a D and no one paid attention to that at all, 
so we are better off failing, right? We can get resources if we 
fail. If we use the resources that we are given, the best we 
are going to do is a D or a D-minus. So what good is it for us 
to try and play to the tests and try and pass these tests as 
opposed to fail, right?''
    This was a security expert that knew what he was talking 
about in the security space but had no incentive to do what 
Government was pushing him to do. I think those incentives have 
changed in terms of the policy space but not in terms of the 
leadership space and not in terms of getting the attention and 
getting the resources needed to actually fix the problems.
    We have seen that the move to risk management I think helps 
agencies to tailor the test themselves so that it is based more 
on risk to the particular agency as opposed to the basic 
checkbox that we used to have, much more so and under the old 
FISMA guidance before the reform FISMA of 2014 came forward.
    OMB suggests in their report that came out in May that the 
goal should be to empower the CIO. This has been done for years 
and years and has not succeeded. Instead we should do exactly 
what Mr. Chairman, you suggested in your opening statement, 
which is to make sure that we hold the leadership accountable.
    The Trump administration in their Executive Order says that 
that is their goal to hold Secretaries and deputy secretaries 
directly responsible for what happens at the agency in terms of 
cybersecurity but the CIOs themselves have many, many jobs to 
do and security is only a small part of what they do.
    Instead we should move to do what has been happening in the 
private sector which is to have the CISOs report to the 
leadership directly themselves and make sure that the CISOs 
have some ability to influence the policy and make sure that 
then the leadership when they are asked questions from above 
that they have the ability to go to the CISO and hear things 
directly from them.
    The question is now, how do we hold that agency leadership 
accountable and we make it so that there is a reason to pass 
and to do the right thing in this space? From my experience I 
would suggest that having the director of OMB responsible for 
making sure that agency heads are paying attention this issue 
as a central mission issue, right? When people don't become the 
Secretary of the Interior or the Secretary of Agriculture or 
others, in order to do cybersecurity but you still have to make 
it part of their mission to do so.
    That is going to take OMB, that is going to take the White 
House chief of staff, making these calls and making sure that 
it is not just an incident that gets the attention of the 
Secretary but that it is on the radar all the time. You can 
also do this at the deputy director level with a deputy 
director of management and making sure that they are the ones 
making the calls.
    Of course, Congress in your regular oversight of agencies, 
when you have those Secretaries and deputy secretaries in front 
of you, you can ask these questions, at other hearings as well 
and make sure that they are being held responsible for what is 
happening at the agencies.
    Now, is the time to make sure that the agencies are being 
held responsible for their failures and rapidly addressing 
these known risks.
    I thank you for again for having me today. I look forward 
to your questions.
    [The prepared statement of Mr. Schwartz follows:]
                       Statement of Ari Schwartz
                             July 25, 2018
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
committee, I am Ari Schwartz. Thank you for the opportunity to appear 
before you today to discuss our views on the Federal Cybersecurity Risk 
Determination Report and Action Plan. I do so in my role as coordinator 
of the Cybersecurity Coalition, the leading policy coalition of 
companies that develop cybersecurity products and services.\1\
---------------------------------------------------------------------------
    \1\ About the Center for Cybersecurity Policy and Law and the 
Cybersecurity Coalition: The Center for Cybersecurity Policy and Law is 
a nonprofit (501(c)(6)) organization that develops, advances, and 
promotes best practices and educational opportunities among 
cybersecurity professionals. The Center provides a forum for thought 
leadership for the benefit of those in the industry including members 
of civil society and Government entities in the area of cybersecurity 
and related technology policy. The Center seeks to leverage the 
experience of leaders in the field to ensure a robust marketplace for 
cybersecurity technologies that will encourage professionals, 
companies, and groups of all sizes to take steps to improve their 
cybersecurity practices. The Center hosts several initiatives focusing 
on a range of critical cybersecurity issues, including the 
Cybersecurity Coalition, Better Identity Coalition, and the Hardware 
Component Vulnerability Disclosure Project. The Cybersecurity Coalition 
brings together industry-leading companies to share their expertise and 
unique perspective on critical policy issues, both in the United States 
and internationally. The Coalition is focused on several active and 
critical policy issues that require close alignment and coordination to 
protect the vital interests of the cybersecurity products industry, 
including: Promoting responsible vulnerability research and disclosure; 
promoting effective privacy processes within cybersecurity policy; 
establishing Government requirements for agency systems; increasing 
information sharing and threat intelligence; and promoting sound 
cybersecurity practices in government at all levels. Coalition members 
include Arbor Networks, AT&T, CA Technologies, Cisco, Citrix, 
Cybereason, Intel, McAfee, Mozilla, Palo Alto Networks, Rapid7, Red 
Hat, and Symantec.
---------------------------------------------------------------------------
    Over the past decade, the Federal Government has steadily moved 
away from ``check box compliance'' mandates to a risk management 
approach to address cybersecurity issues. Major steps in this move have 
included:
  <bullet> The Cybersecurity Cross Agency Priority (CAP) goals,\2\ 
        which ensured that agencies would receive individualized review 
        of their risk management plans;
---------------------------------------------------------------------------
    \2\ See Obama Admin. Archives, Cross-Agency Priority Goal 
Cybersecurity, available at https://
obamaadministration.archives.performance.gov/content/
cybersecurity.html.
---------------------------------------------------------------------------
  <bullet> The Federal Information Security Modernization Act of 
        2014,\3\ which provided authorities to increase risk 
        assessments of agencies;
---------------------------------------------------------------------------
    \3\ Pub. L. 113-283.
---------------------------------------------------------------------------
  <bullet> The Cybersecurity National Action Plan, which created a 
        Federal chief information security officer (CISO) at the Office 
        of Management and Budget (OMB); and
  <bullet> Perhaps most notably, the Presidential Executive Order on 
        Strengthening the Cybersecurity of Federal Networks and 
        Critical Infrastructure,\4\ which required Federal agencies to 
        utilize the NIST Cybersecurity Framework \5\ to establish a 
        process to manage risk and holds agency heads accountable for 
        doing so.
---------------------------------------------------------------------------
    \4\ Executive Order 13800.
    \5\ Nat'l Inst. of Standards and Tech., Framework for Improving 
Critical Infrastructure Cybersecurity, Version 1.0 (2014).
---------------------------------------------------------------------------
    A risk management approach offers each agency the ability to focus 
on their specific needs and enables them to demonstrate growth in their 
cybersecurity efforts while taking steps to address the most critical 
threats to their mission.
    OMB's May 2018 Federal Cybersecurity Risk Determination Report and 
Action Plan shows that, despite some limited progress, agencies have a 
lot more to do to effectively manage cybersecurity risk.
    This is not an unexpected result. Agencies are not adequately 
resourced to manage cybersecurity risk, and do not have proper cross-
departmental coordination processes to identify and resolve any 
barriers to achieving this goal. The Federal Government has not 
prioritized cybersecurity risk management and simply changing policies 
to help agencies measure risk will not change their policies on its 
own.
    So what will change agencies' approaches to cybersecurity risk 
management and drive real improvement? The May 2017 Executive Order had 
the right idea. It is up to OMB and the President to hold agency 
leadership accountable to improve.
    The OMB Report suggests that chief information officers (CIOs) are 
not empowered to make the necessary changes and suggests that 
leadership should empower them to do so. While that is one approach 
that seems to have worked for some agencies, we would recommend that to 
really make a change in agencies, senior leadership needs to oversee 
cybersecurity risk management. In other words, security officers should 
not be reporting to the CIO, but to the deputy secretary or the 
Secretary. A similar move has started to take place in private 
companies where CISOs are no longer reporting to CIOs but to CEOs or 
COOs or directly to the Board of Directors. This shift in thinking has 
happened because CEOs and Boards of Directors have felt pressure to 
improve cybersecurity at companies as the result of countless breaches 
and incidents that have created real and material risk that simply 
cannot be ignored or delegated to only the information technology 
teams.
    For this to work in the U.S. Government, the director of OMB, the 
White House chief of staff, and the President must hold the Secretaries 
directly accountable for cybersecurity risk management at the agencies. 
Similarly, the deputy director for management at OMB must hold the 
deputy secretaries accountable. Congress must adequately resource 
agencies and hold the leadership at all levels accountable for managing 
risk through public oversight. Without this accountability, other 
measures, however well-intended and necessary, will not be able to 
succeed to the extent needed to secure our Government.
    At this point, every agency's leadership has been told that they 
are responsible for the cybersecurity of their agencies. Agencies have 
now been measured and have not fared well.
    Now is the time to hold the agency leadership responsible for 
failures and to rapidly address these known cybersecurity risks.

    Mr. Ratcliffe. Thank you, Mr. Schwartz.
    I now recognize the gentleman from New York, Mr. Donovan 
for 5 minutes.
    Mr. Donovan. Thank you, Mr. Chairman.
    Thank you all for sharing your expertise with us but to 
show you how I lack expertise I have a VCR back home it still 
flashes 12 and you cannot see because you are facing us but all 
the young people behind you now, Googling, ``What is a VCR?''.
    So just so I can understand the problem properly, if we are 
protecting our gold in Fort Knox and there is only one entrance 
in there, we have a good chance of making sure anybody who gets 
through there is a person that ought to get through unless they 
are disguising themselves as someone else and I guess in your 
field you would call that just looking like a friendly user to 
get into a network when you are actually an infiltrator.
    The difficulty is when you have more than one entrance I 
guess or if you have secured your entrance but there are other 
people who have entrances and are not securing it as well as 
you are, that causes vulnerabilities in Fort Knox and causes 
vulnerabilities in systems I suspect because it was hard for me 
to grasp before I joined this committee on like, why cannot we 
just protect this?
    If we know, as much as the bad guy, do we anticipate what 
they are going to do? I think Ms. Fowler you used word 
resiliency and the Chairman used the word resiliency.
    Before we have a tragedy or an intruder so could you kind-
of like frame the problem for me so I could understand it 
because I think I have to understand the problem before we 
could actually come up with or understanding what your 
suggested solutions are?
    Mr. Durbin. OK. Thank you for the question. It is a complex 
situation, a lot of it has to do with the diversity of the 
Federal Government, the diversity of the agencies, how they are 
organized, some are more flat, some are federated, some have 
more resources than others do so it is coming up with a common 
baseline of what is it that we have and what is it that we are 
trying to protect.
    I believe that the CDM program in their Phase 1 certainly 
is trying to fix that situation by doing that definition. Phase 
1 the goal is to go out and identify all hardware and software 
assets because some have made the comment and it is very true, 
you cannot defend what you cannot see.
    So now that we are closing in on the end of Phase 1, we 
will have a much better look at what it is we are trying to 
defend so that we know, what all those different entry points 
are that you referred to and then we can work on providing 
protections against all of those different attack vectors.
    The other issues are legacy systems that we have talked 
about. You have a disparity between different people's products 
and solutions that they are using for access management or for 
determining who is qualified, who has privileges to access a 
certain system and should they have those accesses so a lot of 
this needs to be discovered and baselined so that we have an 
understanding of what the problems are and then we can come up 
with solutions to solve them.
    Mr. Donovan. Thank you.
    Ms. Fowler.
    Ms. Fowler. Yes. I am excited to hear you use the word 
resilience because it really is about resilience. When you use 
the example of gold that needs to be protected, it is not even 
just against someone who trying to steal that gold but when we 
think about the fact that the gold is housed somewhere, it is 
in a container could it be impacted by a natural disaster, 
could someone who is working there make a mistake, and that 
would also cause us to lose our ability to access or use that 
gold.
    So we really want to look at this from a holistic 
standpoint of not just trying to figure out what it is that an 
adversary is trying to do but to understand what it is that is 
most important to us and how we can ensure that it will not be 
impacted in any negative way, right? From any sort of 
disruption.
    That really even starts before understanding what our 
assets are and that is related to what we talked about with 
having leadership have a real skin in this game. It is being 
able to articulate and communicate what it is that we are 
trying to achieve from a mission standpoint so you know, 
organizations like Health and Human Services and Department of 
Energy have different missions that they need to achieve, they 
have different services that they are going to provide to 
achieve those missions, and then the assets that support those 
services are what we really need to protect. So it is the 
identification of the assets that are important to each 
mission.
    The way we can use the limited resources that we have best 
is to be able to articulate our risk appetite against those 
assets that are in our organizations and make sure that 
programs like CDM are focused on those.
    So you know, my way of explaining this to you would be, let 
us not just look at this in terms of a threat from a cyber 
attack but a holistic, how do we protect against the impact of 
any negative consequence?
    Ms. Fowler, thank you.
    Mr. Schwartz.
    Mr. Schwartz. You talked about protecting the gold in Fort 
Knox but that reminds me of a saying that they use in the 
military about ``protecting diamonds and toothbrushes'' which 
is, if we were to protect diamonds the same way as we protect 
our toothbrushes, we would have a lot of toothbrushes and not 
very many diamonds.
    That is part of what both Mr. Durbin or Ms. Fowler are 
discussing here, which is how do we do risk management in this 
space, in a way where we can identify the assets and then do 
the risk profile in a way that makes sure that we are 
protecting that information in the right way that it needs to 
be protected?
    Prior to the NIST framework, the NIST Cybersecurity 
Framework, which Mr. Durbin mentioned, the Federal Government 
actually pretty much just had a list of the things you need you 
for every system and did not really take the less important 
systems or more important systems and kind-of do that balancing 
test of how should we be protecting this particular system.
    Now we are moving toward a time when we are doing that 
kind-of risk management and that is what this OMB report's 
really about, is how agencies are looking at risk in this 
space; how are they identifying it, how do they do these 
different pieces, right?
    I break the NIST profile into identify, protect, detect, 
respond, recover, which I break up into two pieces, one is the 
defense side so the identify and protect, and then the other 
side detect, respond, recover I think of as a resilience side, 
as Ms. Fowler has been saying right?
    So that is the how do you get to do both sides of that and 
make sure you are doing it the right way for each system and 
that is the kind of approach that now agencies are taking for 
the most part but they still have problems in terms of actually 
putting the protections in place, actually making sure that 
they are resilient in the way that they need to be even for the 
most critical systems.
    Mr. Donovan. I thank you all again for your expertise.
    Mr. Chairman, I yield back, which time I don't have any 
more.
    Mr. Ratcliffe. Well, thank the gentleman.
    The Chair recognizes the Ranking Member, Mr. Richmond--the 
Chair recognizes my friend and colleague from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I thank the Ranking 
Member.
    Thank the panel also for their testimony today, the 
expertise, the insights that you bring to these challenging 
topics.
    Let me begin if I could with Mr. Schwartz, you spoke of the 
need to hold Secretaries, not CISOs accountable for the 
security of their agencies' networks and I certainly would 
agree.
    I remember what happened when a Secretary of Defense Ash 
Carter started taking a deeper interest in this topic and doing 
a deep-dive requiring weekly reports being given to him and 
even on the issue of establishing a Bug Bounty Program when he 
said, ``We are going to make this happen,'' he started telling 
people and programs to get out of their way and make it happen, 
it did.
    So I can see the why it is so important to have Secretary 
buy-in but you know, it seems that for years poor results on 
FISMA scores have not been enough in other agencies though to 
motivate action.
    So my question is what could the administration do to 
encourage real action to address these continued deficiencies 
and ensure cybersecurity leadership at the highest levels and 
again from your perspective why is it so important to have 
Secretarial buy-in?
    Mr. Schwartz. Thank you, Mr. Langevin. Thank you for your 
continued leadership on these issues too.
    I think there is a lot in that question in terms of, how do 
we get leadership to actually focus on this?
    I do think that the executive--or the Trump Executive Order 
that came out in May 2017 actually put us in the right place, 
which is before the Secretaries had all of their goals in place 
they were told that cybersecurity was a major issue.
    But it takes staying on top of that to do that. That means 
holding Cabinet meetings around cybersecurity and the President 
going around and asking each agency what they are doing, 
holding up the report card from OMB and asking them, ``What are 
you doing to do more,'' right? That is what really taking the 
Executive Order and actually implementing it means in this 
space.
    I realize that there are a lot of other things going on but 
that is what is going to make a difference in this area, is 
making sure that the Secretary knows that they are going to be 
going into a meeting and that they have to prepare for it and 
the 50 people that follow them around and do every day and do 
that thing for that day, this is going to be the thing that we 
are doing today, right?
    Therefore, everything needs to be in line and we need to 
get the CISO in front of us so he can give us the answers of 
what we need----
    Mr. Langevin. Yes.
    Mr. Schwartz. Rght? That is the only way that it is going 
to change.
    This is the same thing that is happening in the private 
sector too, not every company is doing this, those that are, 
are more successful.
    Mr. Langevin. Yes. Yes, I would agree. I mean, if the top 
people are not paying attention to this then clearly it becomes 
a secondary priority but the President or the Cabinet 
Secretaries are the ones that are driving this then clearly 
everyone's going to stand up, shine the shoes, and get this 
done the right way.
    So, Mr. Schwartz, on another issue with small- and medium-
sized businesses have largely resorted to outsourcing not just 
their IT but also the security of their IT given their limited 
budgets. In a similar vein the OMB report suggests that shared 
services are key to addressing risk management issues, yet we 
have made little progress to that end.
    So Mr. Schwartz, if you could, what barriers do agencies 
face in getting to shared or outsourced services and how do we 
overcome them?
    Mr. Schwartz. Yes. The shared services one is a tricky 
problem for a lot of agencies. Part of it is just the culture 
of the fact that they have had been doing internal security for 
years and years and they have to move away from that and spend 
the money on the cloud company doing the protections for them 
rather than keeping that same security in-house.
    The small agencies in particular, those that don't even 
have a large IT department are never going to be able to have 
enough security professionals and technology to protect 
themselves, whereas the cloud companies specialize in that, the 
managed security services specialize in that so there is a need 
to move in that way.
    I think the main challenges that they face are really 
procurement challenges though because you know, you want to do 
oversight of the agencies that you are in charge of doing 
oversight over. If they are turning over a lot of their budget 
to other agencies in order to run their services, you lose 
oversight over their IT, right?
    I understand that from a Congressional point of view but 
that is how we are going to improve with the small- and medium-
size agencies, is by Members of Congress understanding that and 
being willing to take the risk of saying, ``OK, we understand 
that you are going in someone else's purview, we are losing 
some control here.''
    But we know, that that agency has security in place and 
that they have oversight over what they are doing as well, and 
our information being held by that agency and being overseen by 
companies in that space that run the managed services in that 
space is going to be acceptable.
    Mr. Langevin. Very good.
    Thank you for those answers. As you can imagine I have 
several more but time is expired.
    So I will yield back. I will have some questions to submit 
for the record unless we go to a second round.
    Thank you. Thank you all.
    Mr. Ratcliffe. I thank the gentleman.
    The Chair now recognizes the gentleman from Nebraska, Mr. 
Bacon for 5 minutes.
    Mr. Bacon. Thank you, Mr. Chairman. I appreciate it. Thank 
you for coming in here and sharing your expertise.
    I used to work in the cyber offensive side a little bit, 
cyber intelligence side, and we have some of the best 
capabilities in the world there but we were also the most 
vulnerable when it comes to defense and other people cyber 
attack. I heard a cyber leader once describ us as living in a 
big glass house and we had the biggest rocks, not very 
comforting at times.
    One of the things that the OMB and DHS report calls for is 
the consolidations of the Security Operations Center and 
instead of each one having their own by consolidating it to one 
big one, do you see that as a significant advantage or does 
having this does it make everybody equally vulnerable if you 
get into one, you get in everybody?
    So I would like to have your thoughts on that. Thank you.
    Mr. Durbin. Yes. Thanks for the question. So having a SOC 
for the sake of having a SOC may not be the best strategy. It 
comes down to your ability to stand up a SOC that has the right 
tools and capabilities to accomplish what it is you are trying 
to do.
    So if you are in a position where it would be better for 
you to merge with somebody else's SOC that has proven 
technologies and has the access capability that might be the 
better way to go so I agree with the recommendation of the 
report, the consolidation of SOCs will improve some 
efficiencies.
    Mr. Bacon. So it gives the best capabilities available for 
everybody----
    Mr. Durbin. Exactly. Yes. Now----
    Mr. Bacon. It standardizes the best----
    Mr. Durbin. Yes.
    Mr. Bacon. OK.
    Mr. Durbin. Yes and of course you need to make sure that 
you consolidate to a SOC that does have the excess capacity and 
that does have the tools in place----
    Mr. Bacon. Right.
    Mr. Durbin. That are going to accomplish the mission.
    This recommendation was also made around the idea of 
improving the ability to detect data ex-filtration and simply 
consolidating SOCs may not accomplish that. You know, the SOC 
has to have the right tools and to be able to discover where 
the data lives and tag that data as sensitive so that you can 
then monitor----
    Mr. Bacon. But by consolidating we can invest in that one 
and make sure that we have the best capabilities----
    Mr. Durbin. Exactly.
    Mr. Bacon. I would say, but would you all just agree?
    Mr. Schwartz. Agreed.
    Mr. Bacon. OK.
    Ms. Fowler. Yes.
    Mr. Bacon. Are we doing better Mr. Schwartz, when it comes 
to sharing intel data because we don't have a lot of silos. I 
mean, you touch on this with Mr. Langevin a little bit but are 
we doing better making progress?
    Mr. Schwartz. There is some progress there. I think a lot 
of the private sector is still really frustrated. A lot of it 
comes down to getting security clearances and the right people 
getting the information so I still hear a lot of frustration.
    I think internally inside the Government it has gotten a 
lot better though----
    Mr. Bacon. It seems to be having a combined security 
operation center allows you to share that data faster because 
you can see where there is infiltration or ex-filtration.
    I had a just a question Mr. Durbin because this fascinates 
me. Evidently, you have talked about a group, well, let me just 
read it here, ``Symantec has engaged regarding a new attack 
group known as `Thrip','' and the ways in which they are living 
off the land in order to get info systems,'' can you talk about 
this new threat and living off the land, what does that mean 
and what kind of a cyber threat is this?
    Mr. Durbin. So living off the land is how we are describing 
a technique where if an attack group creates a complex 
sophisticated piece of malware that they use to infiltrate a 
system, it is going to be relatively easier to detect that 
because we haven't seen it before, it doesn't look right, it 
raises a flag so if an attack group can utilize a network 
administration tool that administrators commonly used to scan 
networks to see what they have and somebody sees that activity 
inside the network it is not going to raise a flag----
    Mr. Bacon. It's camouflaged?
    Mr. Durbin. Yes, they could say, OK, well somebody's just 
scanning the network because that is part of what they do----
    Mr. Bacon. Right.
    Mr. Durbin. So that--and that is just one example using 
PowerShell scripts and things, is just ways to mask their 
abilities so it is not as easy to detect.
    Mr. Bacon. It makes sense.
    One last question, I know, the Russians use a lot of 
phishing techniques, that is how they entered the DNC server. 
It seems to me that makes us the most vulnerable, is that 
technique. What can we do to better defend against these 
phishing techniques that are going on?
    I will just open up to whoever feels like they have the 
best answer.
    Ms. Fowler. Go ahead.
    Mr. Schwartz. I would say getting better identity 
management is really the key to the phishing techniques. I 
mean, right now, a lot of times we still rely on username, 
passwords, and moving toward techniques that move beyond that.
    They talk about that a bit in the report that there has 
been a move toward use of cards sort-of which I think does help 
to some degree inside the Government but it is really about the 
credential and whether you can secure that credential.
    Ms. Fowler. We absolutely do see phishing as one of the 
most common vectors for having attacks occur. A couple of 
things that we need to do.
    One is training although we know, that no matter how much 
we train people over and over it takes just one person to hit 
the link and cause the issue to occur so thinking about 
advances in terms of automation and analytics and the things 
that we are doing in the areas of Machine Learning.
    So this is going to take us advancing past our adversaries' 
capabilities and investing in the research that will get us 
there.
    Mr. Bacon. Thank you, Mr. Chairman.
    Mr. Ratcliffe. The Chair now recognizes my friend from 
Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman. I think you touched 
on it a little bit but from my perspective, when it comes to 
Federal network security I see at least two systematic problems 
but they stem directly from the White House, one of which is 
the tendency to undercut or diminish the role of authority 
figures, eliminating the cybersecurity coordinator is a good 
example.
    Second, it is taking far too long to fill senior positions 
like chief information officers and at the end of last year 
nearly one-third of the agencies were still operating without a 
permanent CIO and the Federal CIO was not named until January 
and the Federal CISO was selected just last week.
    How important is strong, clear leadership structures when 
it comes to cybersecurity particular for an agency trying to 
instill a culture of risk awareness? I know, Mr. Schwartz you 
mentioned having a chief executive that will hold people's feet 
to the fire, the question becomes can that be delegated and 
without a cybersecurity coordinator, where do we find 
ourselves?
    So anyone can answer that, let us start with Mr. Schwartz.
    Mr. Schwartz. Yes. I have always felt that the 
cybersecurity coordinator should be I mean, it should be 
brought up to be a deputy level.
    There was a commission, the Obama Commission that was 
preparing for the next President, suggested that it be raised 
to an assistant to the President but I actually think it makes 
sense to have it at the deputy level particularly for the 
reason of being able to call out deputy secretaries on these 
kinds of issues and make sure that they are held accountable.
    Getting rid of that position totally I think is a step 
backward from being able to do that. I mean, you can have a 
deputy play that role but they are going to have 90 other jobs, 
right? So how much time can they actually spend calling up 
deputies and asking them how they are doing on cybersecurity or 
if you are supposed to be having someone dedicated toward just 
doing, offensive capabilities, defensive capabilities inside 
the Government as well as critical infrastructure protection 
too but having this one piece be part of their job as a deputy 
at the level of deputies I think makes a lot of sense.
    So again, I think that they took a major step backward by 
getting rid of the position totally rather than elevating it 
the way they should have.
    Ms. Fowler. I agree that governance and leadership are the 
most critical first step in establishing good cyber risk 
management practices. It is also a matter of making sure that 
the work force itself who is in those positions are trained in 
these areas and understand how to manage cyber risk like other 
risks are managed.
    We often look at cybersecurity as something that is special 
or not understood and really, we need to manage cyber risk like 
we manage other risks inside of the organization and that is a 
matter of using those limited resources in the best way 
possible.
    So the leaders that we do put in place it is incumbent that 
they set that risk appetite and understand what the tolerance 
ranges are for that organization and communicate those to the 
work force.
    The work force is doing the absolute best that they can to 
do all of the right technical things, it is just ensuring that 
they are provided the guidance that it is going in the right 
step so the governance aspect of this is that most important 
first step.
    Mr. Durbin. I would just simply add that no matter what 
cybersecurity program you are trying to set up, it is key to 
get buy-in from all levels of the organization and that is no 
different with the Federal Government.
    Mr. Richmond. Let me ask this because I think that it also 
came up but the Federal Government's always lagging behind the 
times and we are about 10 years back from where we should be in 
terms of our cybersecurity.
    How can Congress empower or provide the resources for our 
Federal agencies to actually be proactive and better prepared 
for the future and then anticipate the risk as opposed to 
always been on the back end?
    Ms. Fowler. So I will speak to that in terms of what I 
think is required for us as a Nation to move forward and you 
will see in the written testimony, I think this requires a 
National initiative to address cybersecurity as a need across 
all sectors.
    You know, in 1961 we made this goal to put a human being on 
the Moon and that sparked interest in a whole lot of different 
science and technology that was developed. We need to have a 
similar initiative which goes down into our education levels at 
all levels starting very early which makes this a part of every 
level of education so that the work force in the future is 
prepared for this.
    We saw this with Estonia when Estonia experienced their 
crippling attacks, that Government decided to really put the 
initiative forward to educate across all levels of their 
citizenship and now, they are recognized maybe arguably but as 
the No. 1 in cybersecurity in all of Europe.
    I see that we need to put forth an educational initiative 
that will prepare our work force for this in the future.
    Mr. Richmond. Thank you. Thank you. I see that my time has 
expired so I will just yield back.
    Mr. Ratcliffe. Yes. Let me give you all--first of all, the 
Chair recognizes himself for questions.
    Ms. Fowler, I very much appreciated your remarks there and 
I agree. I have talked about a cyber moonshot and identifying 
an approach that will address some of the concerns that you 
related and if you believe as I do that cybersecurity risks 
present perhaps our greatest National security threat right now 
and going forward then we need to have some sort of a cyber 
moonshot to address those threats.
    But I want to give each of the witnesses a chance to weigh 
in on the Ranking Member's very good question, one that I had 
as well.
    So Mr. Durbin.
    Mr. Durbin. If you were to take a look at the original CDM 
documents 5 years ago and look at the projections of where they 
thought they would be by now, we would be in much better shape.
    There are reasons why we are not there yet. Phase 1 is a 
critical phase, it builds the foundation. We basically had told 
the agencies let us know, give us an inventory of all of your 
assets so that we can then turn around and provide you with a 
tool that is going to give you an accurate inventory count.
    So there was no shock when after Phase 1 was deployed and 
that tool was turned on, the number of assets in the agencies 
was found to be severely under-reported.
    That is a good thing. It is a good thing that we now have 
visibility into what it is we are trying to protect so that 
took more time than they originally thought.
    So if we were to accelerate the other phases and let us get 
to the point where we can automate the authority to operate 
process, every 72 hours we are doing a scan, so an organization 
knows you know, am I able to operate, do I have some 
deficiencies that need to be repaired in kind-of real-time, I 
think that would put us in a much better position.
    They did add Data Protection as a Phase 4. I applaud them 
for that but that is what the bad guys are after. They are 
after the data so while we are trying to figure everything else 
out, let us protect the data, let us lock that down.
    Mr. Ratcliffe. Perfect. Thank you.
    Mr. Schwartz.
    Mr. Schwartz. Thank you, Mr. Chairman. This you know, 
responding directly to your comments on this issue about the 
cyber moonshot and the threat that comes from cyber and the 
space compared to other threats. I mean, look at what we have 
done on terrorism, right?
    We have done a pretty good job in terms of trying to 
resource-out how we protect this country from terrorism but we 
have been told for the past 7 years that cyber is overtaking 
terrorism as the most major threat to this country and we are 
not getting the resources to cyber that we have for terrorism.
    So I am not sure that that is a moonshot or what you call 
it but there is this question of paying as much attention to 
this problem as to address it in the way that we think of it as 
the size problem that it actually is.
    That is why I focus on you have to have Cabinet-level 
meetings in order to do that, you have to put the resources 
toward it that are commensurate with it and we are not doing 
that now, so we cannot expect to get the results particularly 
at small agencies in order to protect themselves when we are 
not helping them out to do that.
    Mr. Ratcliffe. Terrific. Thank you.
    As I mentioned in my opening, the OMB and DHS report that I 
think the specific number was 71 of 96 Federal agencies have 
cybersecurity programs that are either at risk or at high risk 
and a statistic that really jumped out at me as being 
particularly disturbing and I am wondering if the number 
surprised you as you read that and whether it does or not.
    When we talk about reversing the trend there, I mean, I 
mentioned CDM as a solution there but I want to make sure that 
that we are talking about all the potential solutions to 
reversing that trend and give you all the chance to weigh in on 
making those points.
    Mr. Durbin. So I guess the percentage did not surprise me 
all that much given the fact that CDM is behind and that some 
of the recommendations made in last year's Executive Order are 
just now starting to take hold so again it did not surprise me.
    I do see CDM as a way to fix a lot of what is in that 
report instead of creating a new program, let us utilize what 
is already there and let us improve it, let us empower it so 
that we can target those specific issues and bring that 
percentage down as quickly as possible.
    Mr. Ratcliffe. Terrific. Thank you.
    Ms. Fowler. I would agree that the 71 is not surprising. It 
is also consistent with what we have seen through our work with 
DHS, what the SEI has done with DHS in looking at the private 
sector with the owners and operators of critical 
infrastructure.
    I would say that CDM in accelerating that program will be 
help in terms of giving us visibility into what our 
capabilities are.
    Again, I do want to see us move toward an operational 
resilience approach where even before we start thinking about 
what it is in terms of a threat actor that we need to worry 
about that we think about the most critical assets inside of 
each organization.
    Mr. Ratcliffe. So can I stop you there Ms.----
    Ms. Fowler. Sure.
    Mr. Ratcliffe [continuing]. Fowler because you talk about 
that in terms of the resilience factor. Are there key metrics 
that we can be looking at to determine how effective we are 
being in terms of making progress on resilience?
    Ms. Fowler. Absolutely. We do have something called the 
``Cyber Resilience Review'' which is a set of questions that 
look across 10 domains of cybersecurity and that can help give 
a maturity measure of how you are doing in terms of the 
completeness of the practices and also the institutionalization 
or sophistication of the practices that you have in place.
    The third element of that is something that you yourself 
mentioned sir, which is efficacy of practice and that is 
something that has been a concern and continues to be a concern 
back at the SEI because we can be doing a lot of things very 
well and they might not be the right things to do.
    Much like we do in the medical industry, we set up very 
scientifically rigorous tests and we do a lot of data analysis 
behind whether or not those tests work in very specific ways.
    We don't have a lot of those practices occurring in 
cybersecurity to say, ``Does this control actually do what we 
want it to do in the face of this threat?'' That is something 
that I think that the Government could invest research in to 
make sure that the efficacy of the practices is as good as the 
completeness of the practices.
    Mr. Ratcliffe. Great point. Thank you.
    Mr. Schwartz I will give you the last word.
    Mr. Schwartz. Sure. So I mean, I addressed this in my oral 
testimony but just to take it a little bit further. I mean, 
what do we do with agencies that are a high risk? Do we spend 
more money there? Do you give them more money to continue to 
fail? Do you fire people? So they have less people there to do 
the job that they need to do.
    I think each agency is a sort-of its own case and what we 
need to do is give people a reason to succeed and make sure 
that the leadership understands what they need to do to 
succeed.
    Sometimes there are a lot of barriers in the way to 
success, OK, then you have got to tackle this one at a time and 
get the right people from the entire agency in order to do that 
and to address those one at a time but it involves digging in, 
in each of those agencies and figuring out what the right path 
to success is.
    It is part of what risk management is but it is also just 
management at an agency at this point.
    Mr. Ratcliffe. Well I want to thank all of our witnesses.
    This has been incredibly insightful and valuable for all of 
us. Thank you all for being here today.
    I also want to thank the Members of the committee for their 
questions and remind them that they can submit additional 
questions for the witnesses and it sounds like at least one of 
the Members will and we will ask the witnesses to respond to 
those in writing.
    Pursuant to Committee Rule VII(D), the hearing record will 
be held open for a period of 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Questions From Honorable Jim Langevin for Summer Fowler
    Question 1. You spoke in your testimony about the importance of 
understanding the potential effect of realized cyber threats. The 2015 
OPM breach exposed a gap in OPM's understanding of the damage that 
could result from the loss of security clearance records--a risk more 
consequential to other Federal agencies.
    What can the administration do to address cyber risk management 
holistically, rather than agency by agency?
    Answer. The Federal Government is an enterprise comprising 
departments and agencies with specific objectives and missions that 
support the larger Federal objective of serving the public. Addressing 
cyber risks at this level requires an enterprise risk management (ERM) 
approach. Carnegie Mellon University's Software Engineering Institute 
developed an ERM process that is targeted at not only managing risks 
but at ensuring organizational and mission resilience. Organizational 
resilience is the ability for a department or agency to achieve its 
mission before, during, and after a disruptive event (such as a cyber 
attack) and to return to normal operations as soon as possible. Our 10-
step ERM process is shown in Figure 1.
          figure 1: ensuring organizational resilience via erm
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The process must begin by establishing governance, risk appetite, 
and risk tolerance ranges. This should be done at the top levels of the 
Federal Government and communicated down to all departments and 
agencies so that they have an understanding of targets/goals for their 
cybersecurity programs. This can be daunting at the enterprise level, 
but it is a best practice that large private companies use to ensure 
alignment of cybersecurity activities to overall business objectives. 
While the cyber risks will still be owned and managed at the 
department/agency level, this also provides a standardized way for 
cross-agency dependencies and risks (e.g., risk of OPM data breach to 
other agencies) to be communicated and managed.
    Enterprise risk management addresses cyber risks holistically by 
first focusing on mission objectives, critical assets, and requirements 
before leaping to technical solutions. This process also provides a 
structured way to develop measures and metrics to monitor performance 
of cybersecurity and cyber risk management practices at an enterprise 
level.
    Unfortunately, if we were to comprehensively answer the question of 
cyber risk management, detailing each step, our response would likely 
be too long to be appropriate for this forum. However, both the CERT 
Resilience Management Model (CERT-RMM) handbook \1\ and ``The 3 Pillars 
of Enterprise Cyber Risk Management,''\2\ from the Insider Threat Blog, 
are readily available on-line. Additionally, the SEI is more than happy 
to schedule discussions with Rep. Langevin and his staff. This 
invitation is of course extended to any Member and his/her staff.
---------------------------------------------------------------------------
    \1\ https://resources.sei.cmu.edu/asset_files/Handbook/
2016_002_001_514462.pdf.
    \2\ https://insights.sei.cmu.edu/insider-threat/2017/11/the-3-
pillars-of-enterprise-cyber-risk-management.html.
---------------------------------------------------------------------------
    Question 2. One continuing challenge with prioritizing Federal 
expenditures on cybersecurity controls is the lack of viable metrics 
for assessing the effectiveness of those controls in reducing 
cybersecurity risks.
    What are the obstacles to closing that gap so that we can measure 
the relative value of various cybersecurity controls? How is SEI 
working to overcome those obstacles?
    Answer. Thank you for recognizing and articulating this challenge. 
Although cybersecurity is viewed as a technically advanced field of 
study, we are still in our infancy when it comes to measuring efficacy 
of capabilities. Other scientific fields such as medicine perform 
rigorous studies following the scientific method with a hypothesis and 
control groups to determine the efficacy of capabilities. In 
cybersecurity, we are still relying on subject-matter expertise and 
compliance as our primary tools for ``measuring'' capabilities.
    The challenge in applying the scientific method is that in any 
given instance of measuring a cybersecurity capability, there are 
several factors to consider:
    1. The operating environment and its configuration (e.g., a 
        computer server).
    2. The cybersecurity control being applied and its configuration 
        (e.g., a firewall).
    3. Potential threat(s) and/or threat actor(s) (e.g., criminal 
        hacker).
    Each of these factors has multiple possible states that must be 
tested. This means that testing the NIST 800-53 controls, for example, 
would require tens of thousands of test cases to account for the 
various operating environments, control configurations, and potential 
threats. I have written more about measuring cybersecurity performance 
in the CERT blog ``Cybersecurity Performance: 8 Indicators.''\3\
---------------------------------------------------------------------------
    \3\ https://insights.sei.cmu.edu/insider-threat/2018/03/
cybersecurity-performance-8-indicators.html.
---------------------------------------------------------------------------
    Carnegie Mellon University's Software Engineering Institute is 
investing a portion of its Congressional Line Item research funding to 
develop and validate a methodology for measuring the efficacy of a 
cybersecurity practice. If successful, the community will have a new 
methodology for measuring the cybersecurity of a system and be able to 
rank order the importance of the controls needed to protect it. This is 
a nascent concept and will require additional investment into research 
and transition into practice, but it is an important step in making 
scientifically valid improvements in cybersecurity. Future work will 
use emerging artificial intelligence concepts to automate the 
methodology and simplify the process.
         Questions From Honorable Jim Langevin for Ari Schwartz
    Question 1. Having served on the National Security Council, can you 
speak to the cross-agency issues that are likely to emerge without a 
Cybersecurity Coordinator at the White House?
    Answer. In 2008, a Center for Strategic International Studies 
(CSIS) bi-partisan Commission led by Chairman McCaul and Representative 
Langevin called for:

``An assistant to the President for cyberspace, who directs and is 
supported by a new office in the EOP--the National Office of 
Cyberspace. This office would be small (10 to 20 people) and would 
provide programmatic oversight for the many programs that involve 
multiple agencies . . . 
``Because cybersecurity requires coordination of activities across 
agencies, the White House is the best place to locate this function. It 
alone has the authority to ensure coordination. The most appropriate 
place in the White House is the NSC.''\4\
---------------------------------------------------------------------------
    \4\ ``Securing Cyberspace for the 44th Presidency: A Report by the 
CSIS Commission on Cybersecurity for the 44th President'' December 2008 
https://csis-prod.s3.amazonaws.com/s3fs-public/legacy_files/files/
media/csis/pubs/081208_securingcyberspace_44.pdf. See page 36.

    When the Obama administration took office, it created a cyber 
policy office in the NSC and put a special assistant to the President 
in charge of this office with the title, White House Cybersecurity 
Coordinator, reporting to the assistant to the President for Homeland 
Security and Counterterrorism.\5\ At the time, several commentators 
suggested that this role was ranked too low in the NSC structure given 
the current and anticipated importance of cybersecurity for the Nation. 
Nevertheless, this office grew to 10 to 15 people and became an 
effective structure to coordinate and provide oversight and direction 
for a wide range of programs and initiatives involving multiple 
agencies. The office also became a focal point for interaction with the 
private sector on high-level issues of policy and National security.
---------------------------------------------------------------------------
    \5\ In my time at the White House, it was explained to me that for 
the NSC: An assistant to the President is the Presidential Commissioned 
Officer that could run meetings at the level of an agency head or 
Secretary; a deputy assistant to the President could run coordination 
meetings at deputy secretary; and a special assistant to the President 
could run meetings at under secretary or assistant secretary. There 
were exceptions to this rule but it gives a sense of overall hierarchy 
in relation to the rest of the Executive branch.
---------------------------------------------------------------------------
    Listing all of the successes of the cyber office since its 
inception would be a considerable effort, but during my 2\1/2\ years at 
NSC Cyber under the leadership of then-Cybersecurity Coordinator 
Michael Daniel, we coordinated a number of important policies and 
actions:
  <bullet> Creation and promotion of the NIST Cybersecurity Framework;
  <bullet> Creation of the Cyber Threat Intelligence Integration 
        Center;
  <bullet> The Executive Order on Cyber Sanctions;
  <bullet> Development of a working Vulnerabilities Equities Process;
  <bullet> Creation of a standards body for Information Sharing and 
        Analysis Organizations;
  <bullet> The remediation of the Heartbleed vulnerability and greatly 
        increased speed in patching critical vulnerabilities in 
        Government agencies;
  <bullet> Agreement with the Chinese government on norms related to 
        corporate espionage through cyber means;
  <bullet> Agreement among agencies on roles in cyber incident 
        response;
  <bullet> Implementation of U.S. Cyber Operations Plan (PPD-20), which 
        was drafted by NSC Cyber prior to my arrival;
  <bullet> Reconstituting the interagency Cyber Response Group (CRG);
  <bullet> Working with Congress to draft the Cybersecurity Information 
        Sharing Act (CISA), which passed and had implementation 
        coordinated by NSC Cyber after my departure; and
  <bullet> Sponsoring the successful White House Cybersecurity Summit 
        at Stanford University in February 2015, where companies 
        pledged to move forward on several important joint 
        cybersecurity projects with Government.
    While the cybersecurity policy coordination in the U.S. Government 
is by no means perfect, it improved demonstrably from where it was when 
the CSIS Commission first made its recommendation.
    In fact, in 2016 the bi-partisan President's Commission on 
Enhancing National Cybersecurity \6\ again recommended that the 
President elevate the current position of Cybersecurity Coordinator to 
an assistant to the President. The report explains that the position 
should have responsibility for bringing together the Federal 
Government's efforts to protect its own systems and data and to secure 
the larger digital economy, and as well as for informing and 
coordinating with the director of the Office of Management and Budget 
on efforts by the Federal chief information officer and chief 
information security officer in order to secure Federal agencies.
---------------------------------------------------------------------------
    \6\ https://www.nist.gov/sites/default/files/documents/2016/12/02/
cybersecurity-commission-report-final-post.pdf.
---------------------------------------------------------------------------
    In general, I agree with both commissions that the special 
assistant role was too low level to be as effective as possible. 
However, instead of raising the level to an assistant to the President. 
I would split the difference and suggest that the cyber coordinator be 
a deputy assistant to the President. This would allow the NSC to work 
closely with the deputy secretaries to make cybersecurity a lead issue 
for every Cabinet agency and better create areas of consensus around 
important new cyber policy, while still providing the ability to raise 
major policy issues to a higher level when disagreement occurs.
    The current administration has decided against all of these 
approaches. It has demoted the role of NSC Cyber by not replacing the 
cybersecurity coordinator and removed the related commissioned officer 
position entirely. It also has demoted the Homeland Security and 
Counterterrorism advisor to a deputy. While this may still provide a 
tenuous hold onto the increased coordination among agencies that was so 
hard-earned over the last decade, I am concerned that eventually this 
coordination will decline and the result will be a de-prioritization of 
cybersecurity as a National security issue. Either there will be a 
cybersecurity incident that causes confusion among agencies, or the old 
rivalries and petty squabbles among agencies will return at a time when 
the White House leadership is not able to organize and offer a 
consensus path forward.
    I find the decision to demote the NSC Cyber particularly 
frustrating because at the beginning of this administration there 
seemed to be the possibility that greater progress could be made toward 
increased coordination.
    Question 2. Having been intimately involved with a very successful 
cybersecurity Executive Order, EO 13636, and the NIST Cybersecurity 
Framework that came out of it, what is your impression of how agencies 
are making use of the CSF now that they are mandated to?
    Answer. The NIST Cybersecurity Framework (``CSF'') was designed to 
provide standards, guidelines, and best practices to help entities 
manage cybersecurity-related risk. Conversely, the CSF was not designed 
to provide a prescriptive set of requirements that must be satisfied in 
order to achieve a desired outcome. This risk-management approach can 
be distinguished from the checklist-oriented compliance style that many 
agencies have historically relied upon. Following the implementation of 
EO 13636, which created the CSF with a focus on critical infrastructure 
organizations, it has been encouraging to see that the current 
administration required agency use of the CSF with EO 13800.
    Agencies are clearly adapting to the risk-management approach and 
incorporating it into agency practices. However, risk management as an 
approach must permeate beyond the IT departments and must have buy-in 
more broadly among other parts of Government in order for the CSF to 
have the desired impact.
    In particular, the inspector generals (IGs) must begin to 
understand how to audit properly to a risk-based approach. Too often 
the IGs seem to want to return to the checklist of cybersecurity 
controls. Under a risk-based approach like those encouraged under the 
CSF, an auditor must not only make a determination if the organization 
is implementing controls, but if the organization is prioritizing the 
implementation of controls properly.
    To be fair, measuring a risk-based approach to cybersecurity 
management is more challenging than simply running through a list of 
things to determine whether they are being done or not. However, we 
should not allow that challenge to deter progress. Risk-based 
management is a well-understood approach, and is used extensively by 
the most sophisticated organizations in both the public and private 
sectors, with demonstrable results.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
